<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senator Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. DR. MICHAEL GRIFFIN, ADMINISTRATOR

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. Today the Subcommittee on 
Commerce, Justice, and Science will come to order.
    Today the subcommittee will hear from the National 
Aeronautics and Space Administration (NASA) Administrator, Dr. 
Michael Griffin, about the NASA budget request and its 
priorities. This is Administrator Griffin's fourth appearance 
before the CJS Subcommittee and we feel that we have a very 
good, productive relationship with both him and his team.
    There are many issues facing NASA and there is also good 
news. And we look forward, as we talk with NASA, about its 
tremendous history.
    This year we honor important milestones in America's space 
program. It is the 50th anniversary of NASA's creation. It is 
the 25th anniversary of when Dr. Sally Ride became the first 
American woman in space. But we want to be sure that NASA is 
not an agency with a great history, but with a great future.
    We regard this year as a year of transition. We say this is 
a year of transition because this time next year we will have a 
new President, but whatever we do for this year's appropriation 
for fiscal year 2009 will be the operating budget for the 
President's first year for the space program. So we have got to 
get it right as the new President comes in. So as the chair 
this year, I want to make sure we put the right resources in 
the right places in the checkbook to make sure America's space 
program remains number one in the world.
    When I looked at the President's budget for NASA, I was 
disappointed. I regarded it as stagnant despite the advocacy 
both from the agency and externally. The President's budget 
request is $7.6 billion. This is only $300 million above the 
2008 omnibus level. This 1.8 percent increase does not even 
keep up with inflation when one simply looks at rising energy 
costs. Science is held steady at $4.4 billion, and though it 
does include launch plans for the decadal study, it is only 5 
of the 17 priorities.
    Of deep concern to this subcommittee are the cuts in 
aeronautic research. It is cut by $65 million, for a total of 
$447 million. We feel that aeronautics is so crucial to the 
future of America's aerospace industry. And once again, 
regrettably, there is no additional funding to help pay back 
NASA for the cost of returning the Shuttle to flight after the 
terrible accident a few years ago. And it also perpetuates a 5-
year gap between the Shuttle's return in 2010 and the launch of 
Orion and Ares in 2015.
    So we are worried about lost opportunities and we want to 
restore those opportunities and keep America's space program 
number one. We continue to face challenges from other 
countries. We know China is on the rise with its capability and 
its intent. Russia is always there, and we do not see this like 
a war for space, but we do say who is going to be the premier 
space agency. We want the United States to continue to lead the 
way not only for national prestige and honor, also not only for 
national security reasons, but the fact that we believe that 
our values, as we became the first in space, were that space 
belongs to the world and does not belong to a single nation.
    Anyway, coming back to where we are, I will continue in my 
fight, joining with Senators Shelby and Hutchison, to fight 
again this year to add the $1 billion to deal with the cost 
that was incurred in returning to flight after the Columbia 
accident. It should not be a question of whether we should or 
should not. It is just a question of doing it.
    We are also going to remember the original Augustine 
Commission which says we need to have a balanced space program 
of human space exploration, a reliable space transportation 
system, and investments in science and also investments in 
scientific research.
    For science, the budget request of $4.4 billion is what the 
President requested. Science at NASA is guided by decadal 
reports prepared by the National Academy of Science. It also 
guides this subcommittee. These decadals are road maps for 
NASA. Science at NASA is something that is so important because 
it saves lives, saves the planet, and creates jobs for the 
future.
    So I am puzzled why the science budget has been flat-funded 
for this year and for the next 5 years. We need to maintain our 
very important commitment to Earth science and the role that it 
plays in global warming. Missions like Ice, Clouds, Land 
Elevation Satellite (ICESat) and the tropical rainfall 
measurement mission (TRMM) measure and monitor the world's ice 
sheets and rain forests. We also need to have science that 
takes us into new breakthrough thinking like a great telescope 
like Hubble whose life we will extend and also the James Webb 
telescope. If you liked Hubble, you are going to be crazy about 
the James Webb telescope and what it will do for those 
advancements.
    Again, aeronautics. In 1998, the aeronautics budget at NASA 
was $1.5 billion. Today it is less than $500 million. Every 
commercial aircraft flying today uses technology developed by 
NASA. We must maintain this leadership, and we see, as we 
travel the world, how competitive aerospace is becoming.
    The budget request for the Space Shuttle is $3 billion. It 
calls for 10 more flights to the Space Station by 2010 and one 
flight is reserved to service the Hubble telescope. Retiring 
the Shuttle and transitioning the workforce will be major 
challenges for NASA. The United States cannot afford to lose 
our science and engineering talent. Therefore, we need to look 
at what will be our employment plan.
    As always, no matter what we do, the safety of our 
astronauts has to be number one. The budget request for 
exploration is $3 billion. It is over $600 million above 2008, 
and this subcommittee, chaired by both myself and Ranking 
Member Shelby are absolutely committed to the goal of returning 
U.S. astronauts to the Moon and maintaining a presence there. 
We estimate that it will cost $16 billion to build Ares and 
Orion. While this is a significant investment, we again 
continue to be disturbed by the gap of almost 5 years between 
the retirement of the Space Shuttle and the launch of Orion and 
Ares. I want to know what we can do, as we engage in our 
conversation, to minimize the time gap and minimize the impact 
on the workforce and what is our path forward.
    The Space Station is $2 billion, $200 million above the 
omnibus level. It is a national laboratory. We must keep our 
international commitments. We need to make sure we finish the 
station and we also need to continue to have access to the 
Shuttle which goes to our partnership with the Russians and the 
commercial orbital transportation services (COTS) program. I 
fully support the COTS program which is funded at $170 million.
    We have a tough road ahead as we put together our bill. It 
will be the intention of the committee to have our bill 
completed before the Memorial Day recess so that we can be 
ready to fly our space ship, the CJS bill.
    So having laid that groundwork, we are going to turn to 
Administrator Griffin.
    But I want the record to show that Senator Richard Shelby 
is not here because his duties as the ranking member of the 
Banking Committee have him on the floor. He is the lead ranking 
member on moving the bill to deal with our terrible, terrible 
housing and foreclosure crisis. Senator Shelby must be on the 
floor, but we assured him his views would be presented here. We 
will submit his statement and questions for the record. He has 
questions about the future of robotic missions to the Moon, the 
NASA education program, the gap in human space flight, and 
issues related to accountability and stewardship. I too share 
those questions. Without objection, we will put these in the 
record and I will proceed.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Madam Chairwoman.
    Dr. Griffin, thank you for joining us today. This is an important 
hearing because it gives us an opportunity to discuss the significant 
role of the National Aeronautics and Space Administration (NASA) and 
its fiscal year 2009 budget proposal.
    NASA's proposed budget is $17.6 billion. This is a $300 million, or 
1.8 percent, increase over the fiscal year 2008 funding level. This is 
a sizeable sum considering the funding constraints that the Federal 
Government faces, yet it still does not begin to provide enough for 
NASA to do all of the critical missions it has been asked to do. 
Therefore, the Committee continues to be posed with many difficulties 
as we try to develop a sound budget for NASA.
    The budget reflects funding choices that have been made by the 
Administration to achieve the goal of returning to the Moon, providing 
a $357 million increase for the Exploration account.
    However, without overall growth in NASA's base budget, this 
translates to either little growth or even serious cuts in funding for 
other critical missions and activities. The budget keeps science 
funding flat for years to come, as well as proposing serious reductions 
in aeronautics and education programs.
    The proposed budget continues to force the development and 
operation of manned vehicles to compete with science and education for 
limited funding, making balancing NASA's budget increasingly difficult.
    When the President proposed his vision for returning to the Moon, 
he outlined a funding plan that showed what it would take to continue 
our leadership in space exploration. Yet, the funding levels that were 
initially proposed have never been requested by the Administration. The 
shortfall for NASA has been estimated to be up to $4 billion. This, 
coupled with serious budget constraints faced by this subcommittee, 
have made it challenging, if not nearly impossible, to provide NASA 
with the money it needs to carry out its critical missions.
    Last year, through the leadership of Chairwoman Mikulski, the 
Senate attempted to alleviate some of NASA's budget constraints by 
approving an additional $1 billion. This funding would have allowed 
NASA's exploration programs to continue without massive cuts to science 
and aeronautics accounts. Further, it would have helped NASA's budget 
recover from the effects of the Columbia shuttle disaster. However, 
these efforts were met by opposition within the Administration and 
ultimately thwarted.
    Dr. Griffin, you have commented in the past that NASA cannot do all 
it is asked to do with the funding provided. Yet, when more funds are 
proposed, the cooperation from those in the Administration have been 
painfully absent.
    While the NASA budget clearly cannot move forward without more 
funding, the fiscal year 2009 budget does stays the course for the work 
NASA is currently doing. It contains some interesting pieces that will 
help further our understanding of the solar system and our own Moon. A 
proposed new outer planets flagship mission and the upcoming Hubble 
servicing mission will enhance the world class science that NASA does 
every day.
    The plan has been laid out, and now NASA is doing its best to 
implement it. Accomplishing the vision for exploration must keep moving 
forward.
    I am particularly pleased to see that the Administration has seen 
the wisdom of flying a robotic lunar precursor mission and the benefits 
that can be achieved in doing such a mission. The National Research 
Council indicated that this type of mission would be beneficial in 
their lunar science report and I look forward to discussing further how 
this mission will be implemented by NASA.
    As we continue to discuss the future of NASA, it is important to 
remember that NASA's know-how not only allows us to reach beyond Earth, 
but also directly impacts our daily lives.
    Scientists at Marshall Space Flight Center developed software that 
clarifies and refines image processing to allow us to view clear, new 
images of the Sun. The software adjusts and corrects computer and video 
images for zoom, tilt and shakiness, giving us the ability to review 
the Sun in a whole new way. Yet, this capability has applications far 
closer to home. This technology is now being used in countless criminal 
cases to assist our law enforcement in solving crimes.
    Last month, a young female student at Auburn University was 
kidnapped and murdered. Through the expertise of the U.S. Marshal's 
Service, the killer's image was captured in a grocery store 
surveillance video where the victim's debit card was used. The 
Marshal's Service sent the surveillance images to Dr. David Hathaway at 
Marshall Space Flight Center in Huntsville where an image enhancement 
program was used to clear the grainy surveillance photos. It was these 
images that were later used to capture the killer.
    And this type of work does not stop here. It is my understanding 
that Dr. Hathaway has also been assisting America's Most Wanted in the 
Lane Bryant Chicago murders. He is to be commended for being such an 
asset to the law enforcement community and NASA is to be lauded for 
their role in developing this vital technology.
    We could spend all morning talking about the many successes of 
NASA, and yet we are here today to discuss the difficulty in balancing 
a budget that will fund only a fraction of the potential this agency 
could achieve.
    The continual budget strains will require that we all work together 
as partners to ensure NASA can meet its many objectives.
    It is my hope that the implementation of the President's vision can 
be accomplished while still maintaining the capabilities that NASA has 
developed in other mission areas.
    The Administration did not leave many crumbs on the table, but I 
look forward to discussing how we may find a solution that keeps all of 
NASA's activities moving forward. While it will be a difficult task 
given the demands for funding across all of the agencies funded in the 
CJS bill, I look forward to working with you, Dr. Griffin, and the 
Chairwoman to ensure that NASA receives the funds necessary to achieve 
the nation's goals.
    Thank you, Madam Chairwoman.

               OPENING STATEMENT OF ADMINISTRATOR GRIFFIN

    Senator Mikulski. So, Dr. Griffin, we are going to turn to 
you and go with your testimony.
    Dr. Griffin. Thank you and good morning, Chairman Mikulski. 
I too regret Senator Shelby could not be here, but please be 
assured we will answer his questions for the record as 
expeditiously as possible.
    I want to thank you for inviting me here today to discuss 
our fiscal year 2009 budget request of $17.6 billion. Rather 
than delving into the details of the budget request itself, I 
would like to use this opportunity to explain the rationale 
behind the strategic choices made with America's investment in 
our Nation's space program.
    Our annual budget represents less than six-tenths of 1 
percent of the $3.1 trillion Federal budget, a small yet 
strategic investment in our Nation's leadership on ``The New 
Frontier'', as President Kennedy characterized our Nation's 
first halting steps and then giant leaps beyond Earth.
    When strategically applied, America's investment in NASA 
also benefits our Nation by spurring development in new, 
innovative technologies and advancing our scientific 
understanding of the Earth, the Sun, the solar system, and the 
rest of the universe in ways that we can hardly fathom today, 
but which inspire us to learn more. Space exploration also 
contributes to our national security in a very deep way by 
enabling us to build closer ties with other nations and 
societies and by inspiring young people to study difficult 
subjects--mathematics, science, and engineering--so that the 
next generation of Americans remains at the cutting edge of 
technical progress. What we do is rocket science. The conquest 
of air and space is one of mankind's most interdisciplinary 
activities. The capabilities we bring into being help not only 
to build a better future for aviation and space; they benefit 
our entire society.
    This year, we celebrate the 50th anniversary of NASA's 
creation by the Congress with the passage of the National 
Aeronautics and Space Act of 1958, a strategic national 
response to the historic achievements of the Soviet Union in 
the arena that President Kennedy would label, so aptly, ``this 
new ocean.'' It was this foresight in recognizing the strategic 
importance of space which inspired and challenged a now aging 
generation of Americans, my generation, to study math, science, 
and engineering so that we could take part in this great 
enterprise.
    However, as we celebrate NASA's 50th anniversary, I must 
also tell you that I am worried. Senator Mikulski, in absentia 
members of the committee, I am concerned that our Nation is now 
facing a silent Sputnik, a moment when many other countries are 
racing for a new high ground of innovation while our own 
advantages--technological, economic, intellectual--are showing 
signs of wear. While I believe that America's greatest days lie 
always ahead of us, this optimism is misplaced unless we 
recognize our problems, confront them, and strive with 
concerted energy to fix them. We need your help.
    We face many challenges at NASA, but I believe the greatest 
of these is the need to maintain a determined and unified sense 
of purpose as we pursue the tasks before us. Our achievements, 
the things we do that awe the world, do not come cheaply, 
quickly, or easily. Space exploration is not for the faint of 
heart. It is not for those who are easily distracted. It is not 
for those who require instant gratification.
    This year, all of us in the space community took a moment 
to recall where we were just 5 years ago when the Space Shuttle 
Columbia disintegrated over Texas and Louisiana, and to reflect 
upon the ultimate sacrifice our astronauts made while pursuing 
our Nation's endeavors in space, and to take cautious, sober 
pride in the progress that we have made in the short time since 
then.
    At great expense, and with considerable technical 
difficulty, we returned the Space Shuttle to flight, and we are 
using it today to complete the assembly of the International 
Space Station (ISS). In the last few months, we have installed 
the European Columbus laboratory, the first of three components 
of the Japanese Kibo module, and the Canadian Dextre robotic 
arm. We have 10 more assembly and logistics missions ahead of 
us, plus one final Shuttle servicing mission to the Hubble 
space telescope scheduled for later this year. Barring 
unforseen circumstances, I believe we are well positioned to 
complete station assembly by 2010, and then retire the Shuttle 
in accordance with the thoughtful recommendations of the 
Columbia Accident Investigation Board (CAIB).
    It took a crisis, the Columbia tragedy, for our Nation's 
leaders in the White House and Congress to recognize the truth 
of the damning assessment of the CAIB. Quoting, ``The U.S. 
civilian space effort has moved forward for more than 30 years 
without a guiding vision.'' The President and Congress honored 
the sacrifice of the Columbia crew, with a new civil space 
policy noteworthy for the logical progression of its goals and 
its clarity of purpose. We must not allow that clarity to fade 
with the passage of time. We must not let it just slip away.
    So, we are honoring America's prior commitments to our 
international partners on the station. We have begun the 
necessary steps, now turning into longer strides to develop a 
new generation of capabilities with the Orion crew exploration 
vehicle and the Ares family of rockets to replace the aging 
Space Shuttle. We are using the market provided by the ISS to 
help bring about U.S. commercial space transportation 
capability with our COTS program that you mentioned.
    By being good partners on the ISS and with an armada of 
Earth and space science missions, through good times and in 
bad, it is my belief that other countries will want to join the 
United States in returning to the Moon, exploring Mars and 
other planets and moons of our solar system, and discovering 
what lies beyond. There is little we cannot do if we pursue 
this common vision together.
    However, please do not confuse my desire for international 
collaboration with a willingness to rely upon others for 
strategic capabilities. Today we are dependent upon the Russian 
Soyuz. This dependence upon Russia for such a critical 
capability is not an option we would choose, but it is where we 
are today. In fact, we must seek an exception to the Iran, 
North Korea, Syria Nonproliferation Act (INKSNA) because we 
have no immediate replacement for the Shuttle and no other 
recourse if we wish to sustain the ISS.
    Since that is a fact--and I prefer to deal in facts--I am 
glad that in today's world we have the option to avail 
ourselves of Russian crew transportation capabilities. But we 
did not get here by design. We got here by default. And as 
Admiral Gehman observed in the CAIB report, ``. . . previous 
attempts to develop a replacement vehicle for the aging Shuttle 
represent a failure of national leadership.'' That failure has 
had and will have costs. The most important of those costs are 
not measured in money or in jobs, though both of these measures 
have been much in the news, but rather in terms of our Nation's 
posture and standing in the world. I will leave it to others to 
assess the larger consequences of the failure of American 
leadership, to which Admiral Gehman referred.
    So let me be perfectly clear. While we have made 
significant progress in the past 5 years, the journey ahead is 
not easy. It requires courage on the part of those who must 
carry it out and commitment from those in leadership who would 
see it succeed. To reach this point in the aftermath of 
Columbia has required extraordinary self-sacrifice by everyone 
involved, and even more will be required in the years ahead. 
Transition from Shuttle to Orion and Ares, the next generation 
of constellation systems, while utilizing the Space Station 
with its six-person crew, and sustaining it with United States 
and commercial and foreign transportation services, is NASA's 
greatest management challenge.
    We must not make promises we cannot keep. We must carefully 
consider any new missions to ensure that they are affordable. 
We must set priorities. We must focus upon the next steps: 
finishing the Station, building a new space transportation 
system to replace the Shuttle, and then venturing out again 
beyond low Earth orbit. We must keep always before us the real 
reasons why we explore this New Frontier, and the consequences 
of allowing our hard-earned leadership on that frontier to slip 
away.
    None of this will be finished in a single year, a single 
presidential administration, a session of Congress, or even in 
the lifetime of anyone here today. It is a challenge for 
generations to come, but one which requires leadership on our 
part today on behalf of those generations to come.
    In the immortal words of President Kennedy, ``Now is the 
time to take longer strides.''
    Thank you.
    Senator Mikulski. Thank you, Dr. Griffin.
    [The statement follows:]

                Prepared Statement of Michael D. Griffin

    Chairman Mikulski and Members of the Subcommittee, thank you for 
the opportunity to appear today to discuss the President's fiscal year 
2009 budget request for NASA. The President's budget request for NASA 
is $17.6 billion, a 2.9 percent increase over the net budget authority 
enacted for 2008, along with a steady, five-year runout commensurate 
with inflation. This increase demonstrates the President's commitment 
to funding the balanced priorities he set forth for the Agency in space 
exploration, Earth and space science, and aeronautics research. We are 
making steady progress in achieving these goals. I ask for your 
continued support as you consider the President's fiscal year 2009 
budget request for NASA.
    When I testified before this Subcommittee last year, I spoke about 
the Administration's balanced priorities for our Nation's civil space 
and aeronautics research goals as set forth by the Congress and the 
President. NASA's mandate is clear, and NASA's authorizing legislation, 
as well as the level of funding appropriated to NASA in fiscal year 
2008, tell me that Congress broadly endorses the balanced set of 
programs the Agency has put forward in this era of limited budget 
growth.
    I have said this in other forums, but it warrants repeating here: 
at present funding levels, NASA's budget is sufficient to support a 
variety of excellent space programs, but it cannot support all of the 
potential programs we could execute. No plan or level of funding can 
fully satisfy all the many constituencies we have. Balanced choices 
must be made. But they cannot continually be remade and revisited if 
there is to be steady progress toward our common, defined objectives.
    As the Columbia Accident Investigation Board noted, and as 
stakeholders acknowledged in ensuing policy debates, it would have been 
far worse to continue with the prior lack of strategic direction for 
human space flight, to continue dithering and debating and inevitably 
widening the gap between Shuttle retirement and the availability of new 
systems. Until and unless the Congress provides new and different 
authorization for NASA, the law of the land specifies that we will 
complete the International Space Station, retire the Shuttle, design 
and build a new spaceflight architecture, return to the Moon in a 
manner supporting a ``sustained human presence,'' and prepare the way 
to Mars.
    We are doing those things as quickly and efficiently as possible. 
System designs for the early elements have been completed, contracts 
have been let, and consistently solid progress is being made with a 
minimum of unexpected difficulty. True, the progress might be slower 
than all of us would prefer, but applying resources in the right 
direction, irrespective of pace, is always productive--and we are doing 
that. The Ares I Crew Launch Vehicle and the Orion Crew Exploration 
Vehicle, as they are presently taking form, are the building blocks for 
any American future beyond low-Earth orbit (LEO).
    Given that this endeavor will be our first step beyond LEO for 
crewed spacecraft since 1972, I believe that bypassing the Moon to 
venture directly into deep space--a proposal some have suggested 
revisiting--poses unacceptable risk. Returning to the Moon and 
consolidating the gains to be made thereby will set us properly on the 
path toward Mars. I ask for your continued support and leadership as we 
progress toward achieving these worthy National objectives.
    Before I highlight key elements of NASA's fiscal year 2009 budget 
request, I would like to summarize NASA's initial fiscal year 2008 
Operating Plan. The initial Operating Plan provides aggregate funding 
of $17.3 billion, at the level of the President's fiscal year 2008 
request. Pursuant to the rescission of $192.5 million in NASA 
unobligated balances in the Consolidated Appropriations Act, 2008 
(Public Law 110-161), aggregate funding in NASA's fiscal year 2007 
Operating Plan is reduced by $185.2 million, and prior year balances 
are reduced by $7.2 million. Implementation of direction in Public Law 
110-161 has resulted in a total reduction of $620.9 million in planned 
NASA activities, consisting of the rescission of $192.5 million, 
offsets for programmatic augmentations totaling $345.2 million, and 
site-specific Congressional interest items totaling $83.2 million. 
Finally, in accordance with Congressional direction, NASA has 
established seven Agency appropriations accounts in the fiscal year 
2009 budget request. As a result, the budgets for NASA's programs and 
projects are requested in terms of direct costs, not the additional 
indirect costs associated with operating the Agency's field Centers, 
assuring safety and mission success, and Agency management and 
operations. The direct budgets will continue to reflect labor, travel, 
and procurement costs associated with each program and project. The 
indirect costs are now budgeted solely within the Cross Agency Support 
account, and not in the NASA programs and projects. We will strive to 
ensure that these changes are transparent to our stakeholders.
    I am appreciative of the action by the Committees on Appropriations 
and Congress in providing regular fiscal year 2008 appropriations for 
the Agency at the level of the President's request, including 
essentially full funding for the Orion, the Ares I, the Space Shuttle, 
and the International Space Station. This total fiscal year 2008 
appropriations level, with some adjustments within the total, will 
enable NASA to meet critical priorities in accordance with the 
direction from the Congress and the President.

         HIGHLIGHTS OF THE NASA FISCAL YEAR 2009 BUDGET REQUEST

    I am pleased to report that the fiscal year 2009 budget represents 
a substantial step forward in responding to the recommendations of the 
National Research Council's (NRC) first decadal survey of Earth 
Science, released in January 2007. The five-year budget runout requests 
$910 million for priorities enumerated in the report. Funding will 
support development of two Decadal Survey new mission priorities--the 
Soil Moisture Active/Passive (SMAP) mission scheduled to launch as 
early as 2012, and the Ice, Clouds, land Elevation Satellite II (ICESat 
II) scheduled to launch in 2015--as well as formulation of three 
additional decadal survey missions.
    Working closely with NOAA, we also are making significant progress 
toward restoring climate sensors that had been removed from the tri-
agency National Polar-Orbiting Operational Environmental Satellite 
System (NPOESS) in 2006. The fiscal year 2009 budget request of $74 
million for NOAA supports the addition of a Clouds and the Earth's 
Radiant Energy System (CERES) instrument onto NASA's NPOESS Preparatory 
Project (NPP) satellite, set to launch in 2010; instrument development 
and ongoing analyses to identify a suitable satellite platform for 
hosting the Total Solar Irradiance Sensor (TSIS); and development of 
climate data records. These actions, which will be implemented through 
close coordination between NASA and NOAA, come in addition to the 
inclusion of the Ozone Mapping and Profiler Suite (OMPS)-Limb sensor on 
the NPP satellite that was announced earlier in 2007.
    The Agency's fiscal year 2009 budget request also reflects a number 
of exciting developments in the space sciences, including an increase 
in the number of new missions, a new initiative in lunar science and 
initiation of plans for high-priority missions in Astrophysics and 
Planetary Exploration. The fiscal year 2009 request includes an 
increase of $344 million over 5 years for Lunar Science in order to 
better understand our Moon. NASA's Science Mission Directorate, with 
support from the Exploration Systems Mission Directorate, is developing 
two small lunar landers, and the Science Mission Directorate is 
initiating a series of new and exciting missions headed to the Moon 
over the next decade. Meanwhile, we are focusing our Mars program after 
2013 on a Mars sample return mission to launch by 2020, and have 
identified funds to initiate development of an outer planets flagship 
mission to be selected in October of this year for launch by 2017. The 
budget also significantly increases Research and Analysis funds in the 
space sciences to gain better value from the missions we are flying, 
and so too, it increases the funding and, therefore, the flight rate of 
our suborbital rocket and balloon research programs in the space 
sciences.
    Our Aeronautics Research portfolio is positioned to address the 
challenges facing the Next Generation Air Transportation System, while 
also developing world-class aeronautics expertise and capabilities. 
Research is aligned with the National Plan for Aeronautics Research and 
Development and Related Infrastructure, approved by the President in 
December 2007. In fiscal year 2009, we will conduct a key test to 
advance our understanding of aircraft aging and durability, and develop 
algorithms to optimize the use of crowded airspace and airports. We 
will continue work on blended-wing-body aircraft, which may reduce fuel 
consumption and emissions, as well as aircraft noise. Additionally, 
NASA's Aeronautics Research Mission Directorate continues to strengthen 
partnerships with academia, industry, and other Government agencies to 
accomplish its strategic goals.
    NASA's commitment to its exploration objectives is clearly 
reflected in the fiscal year 2009 budget request. As assembly of the 
Space Station nears completion, NASA will increasingly focus its 
efforts on continuing the development of the Orion Crew Exploration 
Vehicle and Ares I Crew Launch Vehicle. This budget request maintains 
Orion initial operational capability in March 2015, and full 
operational capability in fiscal year 2016, though we are striving to 
bring this new vehicle on line sooner. In fiscal year 2008, we will see 
the completion of the formulation phase for major elements of the 
Constellation program; both Orion and Ares I will undergo their 
preliminary design reviews. We will conduct the first Ares ascent 
development flight test with the Ares I-X in the Spring of 2009, and we 
will continue to conduct research and develop and test technologies 
through the Advanced Capabilities Human Research and Exploration 
Technology Development Program. The Lunar Reconnaissance Orbiter (LRO)/
Lunar Crater Observation Sensing Satellite (LCROSS), an important part 
of NASA's lunar exploration strategy, is on track for launch at the 
beginning of fiscal year 2009. The Agency is also requesting $173 
million to provide incentives for entrepreneurs--from big companies or 
small ones--to develop commercial transport capabilities to support the 
International Space Station. With more than $2.6 billion in NASA funds 
available over the next five years to purchase cargo and crew services 
to support Space Station operations, our objective and strong 
preference is to use these funds to purchase these services from 
American commercial companies wherever possible.
    While I would prefer that the United States have domestic 
alternatives to purchasing crew transport services from Russia, I am 
glad that the Russians are our partners and have such capabilities, 
because the consequences if they were not available are far worse. If 
NASA astronauts were not onboard the Space Station, our National 
Laboratory in space simply would not survive. If there is no Space 
Station, there is no market for the commercial providers we are trying 
to help bring into existence, and our international partnership would 
simply fall apart. So, in order to keep these objectives viable, NASA 
may need to obtain additional crew and cargo transport services from 
our international partners if U.S. commercial services are not yet 
demonstrated and available.
    In the area of Space Operations, NASA's fiscal year 2009 budget 
request will allow us to continue to expand the Space Station, complete 
the supporting truss structure and solar arrays, and deliver the final 
component of the Japanese laboratory. This will round out the set of 
three space laboratories aboard the Station, with one each from the 
United States, Europe, and Japan. In addition, fiscal year 2009 will 
mark another milestone for the International Space Station Program--for 
the first time, the Station will be able to support a full-time crew of 
six astronauts. With three major scientific facilities available to 
them, these larger crews will be busy as Station kicks off a new era in 
microgravity research aboard this National Laboratory in orbit. 
Critical to these achievements, the Space Shuttle is scheduled to fly 
five times in fiscal year 2009. During fiscal year 2009, NASA also 
plans to launch payloads on eight expendable launch vehicles. Fiscal 
year 2009 will also see the consolidation of the Deep Space, Near-
Earth, and Space Communications networks into a unified Space 
Communications and Navigation (SCaN) architecture within the Space 
Operations Mission Directorate.
    NASA is continuing to transition from the Space Shuttle to new 
Exploration systems, and will need a complement of critical tools and 
authorities necessary for the transformed Agency to execute its 
mission. This transition is the largest and most daunting since the end 
of the Apollo program and the beginning of the Space Shuttle program. 
It dictates that we obtain the authorities needed to ensure sufficient 
support in the future. We hope to discuss the details of these 
legislative requests with Members of Congress in the weeks ahead.
    The remainder of my testimony outlines the fiscal year 2009 budget 
request for NASA in greater detail.

                      SCIENCE MISSION DIRECTORATE

    In 2007, NASA successfully launched four new orbital and planetary 
science missions (THEMIS, AIM, Phoenix, and Dawn), almost 20 suborbital 
science missions, and two major airborne Earth science campaigns. This 
past year also saw the first test flights of the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) 747 airborne infrared 
observatory, as well as the provision of rapid-response airborne remote 
sensing aid to the California wildfire emergencies. In addition, 2007 
was a year of remarkable scientific discovery about the Earth, the Sun, 
the planets and the universe. For example, data from the Ice, Clouds, 
and land Elevation Satellite (ICESat), the Gravity Recovery and Climate 
Experiment (GRACE), and other satellites have provided dramatic new 
insights on ice sheet changes in Greenland and Antarctica. The Solar 
TErrestrial RElations Observatory (STEREO) satellites (A and B) have 
provided the first three dimensional images of the sun and the 
structures of the heliosphere. These new 3-D views, along with 
unprecedented observations from Hinode (Solar-B), NASA's Time History 
of Events and Macroscale Interactions during Substorms (THEMIS) 
mission, and the Aeronomy of Ice in the Mesosphere (AIM) satellite are 
revolutionizing knowledge of the variable Sun and its interactions with 
the Earth. Also, the Cassini spacecraft radar imagery of Titan revealed 
large lakes of methane in Titan's North polar region, indicating a 
hydrological cycle. Finally, a new map provides the best evidence to 
date that normal matter, largely in the form of galaxies, accumulates 
along the densest concentrations of dark matter. Mapping dark matter's 
distribution in space and time is fundamental to understanding how 
galaxies grew and clustered over billions of years.
    NASA's fiscal year 2009 budget request provides $4.44 billion for 
the Agency's Science portfolio to study the Earth, our Sun and its 
heliosphere, our solar system, and the Universe. This funding enables 
NASA's Science Mission Directorate (SMD) to start major new missions, 
to increase research and analysis funding, and to operate and provide 
ground support for 55 operating science missions, including 13 Earth 
science mission extensions. It provides support for over 3,000 current 
operating research and analysis grants, while continuing to develop 
high priority missions in Earth Science, Heliophysics, Planetary 
Science and Astrophysics, consistent with the priorities established by 
the NRC's decadal surveys.
    The fiscal year 2009 budget request for Earth Science provides 
$1.37 billion to help us better understand the Earth's atmosphere, 
lithosphere, hydrosphere, cryosphere, and biosphere as a single 
connected system. In addition to 14 operating missions, the request 
includes funding for seven missions in development. The Landsat Data 
Continuity Mission and Ocean Surface Topography Mission (to launch in 
2008) continue the decades-long time series of land cover change and 
ocean surface height data, respectively. Glory targets the impact of 
aerosols on climate. The National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) Preparatory Project (NPP) paves 
the way for the future national weather system and continues essential 
measurements from the NASA Earth Observing System (EOS), Aquarius, and 
the Orbiting Carbon Observatory (OCO), set to launch in 2008. Aquarius 
and OCO will make the first-ever global measurements of ocean surface 
salinity and atmospheric carbon dioxide, respectively. The request 
specifically increases funding for OCO and the Aquarius missions to 
maintain development schedules. The Global Precipitation Measurement 
(GPM) mission will extend the rainfall measurements made by the 
Tropical Rainfall Measurement Mission (TRMM) to the global scale. The 
request retains the GPM core mission launch readiness date. With 
respect to Glory, the development estimate included in the fiscal year 
2009 request represents cost growth of more than 30 percent from NASA's 
baseline development estimate, which, under the terms for Major Program 
Activity Reports under Public Law 109-555, will require explicit 
Congressional authorization in the next 18 months to continue.
    The budget request responds to the Earth Science Decadal Survey by 
establishing a funding wedge of $910.0 million over the budget runout 
to initiate five new earth Decadal Survey missions for launch by 2020, 
while continuing to implement seven precursor missions for launch 
between 2008 and 2013. NASA will continue to contribute to the 
President's Climate Change Research Initiative by collecting data sets 
and developing predictive capabilities that will enable advanced 
assessments of the causes and consequences of global climate change.
    The Heliophysics budget request of $577.3 million will support 
missions to understand the Sun and its effects on Earth, the solar 
system, and the space environmental conditions that explorers will 
experience, and to demonstrate technologies that can improve future 
operational systems. The request increases budgets for Sounding 
Rockets, Research Range, and Research and Analysis to achieve a more 
robust level of small payload opportunities. In addition to supporting 
16 currently operational missions, the request supports the 
Interstellar Boundary Explorer (IBEX) mission focused on the detection 
of the very edge of our solar system and the Coupled ion-Neural 
Dynamics Investigation (CINDI) ``Mission of Opportunity'' that will 
provide new insight on the Earth's ionospheric structure, both of which 
are planned for launch in 2008. In early fiscal year 2009, the Solar 
Dynamics Observatory (SDO) to study the Sun's magnetic field is planned 
for launch, and the Geospace Radiation Belt Storm Probes (RBSP) mission 
will begin development. RBSP will improve our understanding of how the 
Earth's radiation belts are formed and how solar output modifies the 
Earth's Van Allen radiation belts. Further, the 5-year budget funds a 
new Solar Probe mission, which has long been sought by the U.S. 
scientific community and is recommended highly in the most recent 
Heliophysics decadal survey.
    The Planetary Science budget provides $1.33 billion to advance 
scientific knowledge of the solar system, search for evidence of life, 
and to prepare for human exploration. The budget supports an array of 
eight currently operating spacecraft and rovers traveling to or now 
studying Mercury, Mars, the Asteroid Belt, Saturn, and Pluto, in 
addition to a series of instrument missions of opportunity. The budget 
request augments Lunar Science to include a series of small robotic 
lunar satellites to begin development in fiscal year 2009 and initiates 
an outer planets flagship mission, planned for launch in 2016 or 2017. 
The request includes continuation of funds for all five of NASA's 
operating Mars missions, the development of a Mars Science Laboratory 
for launch in 2009, a Mars Scout mission in 2013, expanding U.S. 
participation on the ESA/ExoMars mission by selecting two instrument 
Missions of Opportunity for study and technology development, a Mars 
mission in 2016. and an increase in Mars research funds. The Mars 
Program has been directed, consistent with National Research Council 
advice, to begin exploring concepts for a Mars Sample Return mission, 
to launch no earlier than 2020. With the New Horizons spacecraft 
continuing on its way to Pluto, the request realigns the New Frontiers 
Program's Juno Mission to Jupiter to be consistent with a 2011 launch 
date, and funds initiation of the next New Frontiers mission. An open 
competitive solicitation for the next mission is planned for release 
near the end of this calendar year. The request continues support for 
the operating Discovery mission and for the development of the new 
Gravity Recovery and Interior Laboratory (GRAIL) Discovery mission, the 
latter of which will use high-quality gravity field mapping of the Moon 
to determine the moon's interior structure.
    The Astrophysics budget provides $1.16 billion to search for 
answers to fundamental questions about how the universe works, how we 
got here, and whether we are alone. The request supports a restart of 
the Nuclear Spectroscopic Telescope Array (NuSTAR) Small Explorer with 
a launch date of no-earlier-than 2011, increases funding for sounding 
rocket payloads, balloon payloads, detector technology and theory, and 
initiates the Joint Dark Energy Mission (JDEM) in fiscal year 2009. The 
Astrophysics suite of operating missions includes three Great 
Observatories (Hubble Space Telescope, Chandra X-Ray Observatory and 
the Spitzer Space Telescope), which have helped astronomers unravel the 
mysteries of the cosmos. The request will support the Gamma-ray Large 
Area Space Telescope (GLAST), which is now planned for launch in May, 
2008, to begin a 5-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. It also provides funding for the Kepler 
telescope, which is planned for launch in February 2009 to detect 
planets in the ``habitable zone'' around other stars. SOFIA will begin 
science operations in 2009, significantly earlier than previously 
planned. The request supports development of the Wide-field Infrared 
Survey Explorer (WISE), which will conduct an all-sky survey, and the 
James Webb Space Telescope, which will explore the mysterious epoch 
when the first luminous objects in the universe came into being after 
the Big Bang.

                AERONAUTICS RESEARCH MISSION DIRECTORATE

    In 2007, the Aeronautics Research Mission Directorate (ARMD) 
continued to pursue high-quality, innovative, and cutting-edge research 
that develops revolutionary tools, concepts, and technologies to enable 
a safer, more flexible, environmentally friendly, and more efficient 
national air transportation system. ARMD's research also plays a vital 
role in supporting NASA's space exploration activities. ARMD's program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, as well as the follow-on National Plan 
for Aeronautics Research and Development and Related Infrastructure 
that the President approved on December 21, 2007.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships with industry, academia, and other Government 
agencies in order to enable significant advancement in our Nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas. ARMD has established 
over 35 Space Act Agreements with industry partners and more are in the 
works. We have ensured that all Space Act Agreements are negotiated so 
that results of collaborations will be broadly disseminated. To date, 
NASA has selected 346 proposals for negotiation of award through the 
NRA process from more than 70 different universities and 60 different 
companies and non-profits. NASA investment in NRAs will increase 
steadily from fiscal year 2009 ($72 million) through fiscal year 2013 
($100 million).
    We have also strengthened our partnerships with other Government 
agencies. For example, NASA and the Joint Planning and Development 
Office (JPDO) have established quarterly reviews to ensure close 
coordination, and NASA participates in all major JPDO planning 
activities. In addition, NASA and the Federal Aviation Administration 
have developed a joint program plan for the Aviation Safety Information 
Analysis and Sharing (ASIAS) effort with well defined roles and 
responsibilities. Also, NASA and the United States Air Force have 
established an Executive Research Council that meets at least twice a 
year to ensure close coordination and collaboration. Lastly, NASA and 
the Army have signed a Memorandum of Understanding to coordinate 
research efforts on rotorcraft.
    In fiscal year 2009, the President's budget for NASA requests 
$446.5 million for Aeronautics Research. ARMD is directly addressing 
the fundamental research challenges that must be overcome in order to 
enable the JPDO vision for the Next Generation Air Transportation 
System (NextGen).
    NASA's Airspace Systems Program has partnered with the JPDO to help 
develop concepts, capabilities and technologies that will lead to 
significant enhancements in the capacity, efficiency and flexibility of 
the National Airspace System. In fiscal year 2009, NASA's budget 
request will provide $74.6 million for the Airspace Systems Program to 
conduct trajectory analyses for service-provider-based automated 
separation assurance with time-based metering in an environment with 
two to three times capacity and with delay and separation comparable to 
or better than that achieved today. In addition, the Airspace Systems 
Program will develop algorithms to generate robust, optimized solutions 
for airport surface traffic planning and control. These surface models 
will be developed as a basis for the optimized use of super-density 
airports, integrated airport clusters, and terminals where demand for 
runways is high.
    NASA's Fundamental Aeronautics Program conducts research in all 
aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. The fiscal year 2009 budget 
request, amounting to $235.4 million, will enable significant advances 
in the Hypersonics, Supersonics, Subsonic Fixed Wing, and Subsonic 
Rotary Wing projects that make up the Fundamental Aeronautics Program. 
These projects focus on creating innovative solutions for the technical 
challenges of the future: increasing performance (range, speed, 
payload, fuel efficiency) while meeting stringent noise and emissions 
constraints; alleviating environmental and congestion problems through 
the use of new aircraft and rotorcraft concepts; and facilitating 
access to space and re-entry into planetary atmospheres. A wide variety 
of cross-cutting research topics are being pursued across the speed 
regimes with emphasis on physics-based multi-disciplinary analysis and 
design, aerothermodynamics, materials and structures, propulsion, aero-
servo-elasticity, thermal protection systems, advanced control methods, 
and computational and experimental techniques.
    The fiscal year 2009 budget request for NASA's Aviation Safety 
Program is $62.6 million. The four projects within the Program 
(Integrated Intelligent Flight Deck, Integrated Resilient Aircraft 
Control, Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NextGen. In fiscal year 2009, the Program will demonstrate aircraft 
engine safety and reliability improvements using advanced sensing 
technologies and new methods for modeling engine gas flow 
characteristics. In addition, ballistic tests will be used to study the 
effect of aging on the impact resiliency of composite fan-blade 
containment structures for aircraft engines. Multiple flight and 
simulation tests will evaluate technologies to protect aircraft during 
hazardous situations. For example, simulations will evaluate 
technologies enabling aircraft to land safely even when flight control 
surfaces are partially damaged or malfunctioning, and flight tests will 
examine forward-looking, multi-frequency radar systems for early 
detection of potential hazardous icing.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet Agency and national 
aeronautics needs. The fiscal year 2009 budget request for the ATP is 
$73.9 million, which will enable strategic utilization, operations, 
maintenance, and investment decisions for major wind tunnel/ground test 
facilities at Ames Research Center in California, Glenn Research Center 
in Ohio, and Langley Research Center in Virginia, and will support 
specific aircraft and test bed aircraft at Dryden Flight Research 
Center, also in California. ARMD has established the National 
Partnership for Aeronautical Testing with the Department of Defense to 
pursue a coordinated approach to managing DOD-NASA aeronautical testing 
facilities. In fiscal year 2009, ATP will continue to reduce the 
deferred maintenance associated with its facilities and will also 
invest in new test technologies ensuring a healthy set of facilities 
and the new capabilities needed for future programs. In addition, ATP 
plans to continue off-setting the user rates for its facilities through 
the funding of a portion of the indirect costs resulting in competitive 
prices. Simultaneously, the Program will continue to move toward a 
long-term strategic approach that aligns the NASA and DOD facilities to 
meet future requirements with the right mix of facilities and 
appropriate investments in facility capability.

                EXPLORATION SYSTEMS MISSION DIRECTORATE

    In 2007, the Exploration Systems Mission Directorate (ESMD) 
delivered as promised and will continue to do so in 2008. Major 
development work is underway; contracts are in place, and our future 
Exploration plan is executable. By the end of 2008, ESMD will see its 
first spacecraft launched from the NASA Kennedy Space Center. This 
Lunar Reconnaissance Orbiter (LRO) and the Lunar Crater Observation 
Sensing Satellite (LCROSS) will help NASA scout for potential lunar 
landing and outpost sites. Additionally, in 2008, NASA will continue to 
plan how best to transition any needed Shuttle workforce and 
infrastructure to the Constellation program.
    The fiscal year 2009 budget request of $3.5 billion for Exploration 
will support continued development of new U.S. human spaceflight 
capabilities and supporting research and technologies, and will enable 
sustained and affordable human space exploration after the Space 
Shuttle is retired at the end of fiscal year 2010. The budget request 
provides stable funding to allow NASA to continue developing our next-
generation U.S. human spaceflight vehicles while also providing 
research and developing technologies for the longer-term development of 
a sustained human presence on the Moon. Budget stability in fiscal year 
2009 is crucial to maintaining a March 2015 Initial Operational 
Capability for the Orion Crew Exploration Vehicle and Ares I Crew 
Launch Vehicle. There is minimum flexibility through 2010, so 
Congressional support for budget stability is critical. Additionally, 
NASA will continue to work with other nations and the commercial sector 
to coordinate planning, leverage investment, and identify opportunities 
for specific collaboration on lunar data collection and lunar surface 
activities in support of Exploration objectives.
    The fiscal year 2009 budget request for Constellation Systems 
Program is approximately $3 billion. The Constellation program includes 
funding for the Orion and Ares, as well as for ground operations, 
mission operations, and extravehicular activity projects and a 
dedicated in-house effort for systems engineering and integration. Last 
year, the Constellation program made great strides and it will continue 
to do so in 2008. We have tested real hardware; we have tested landing 
systems; and we have logged thousands of hours in wind tunnels. So far, 
NASA engineers have conducted almost 4,000 hours of wind tunnel testing 
on subscale models of the Ares I to simulate how the current vehicle 
design performs in flight. These wind tunnel tests, as well as NASA's 
first scheduled demonstration test flight for Ares I, known as Ares I-
X, are scheduled for spring 2009 and will lay the ground work for 
maturing the Ares I final design.
    Constellation has an integrated schedule and we are meeting our 
early milestones. In fact, all major elements of the Orion and Ares 
vehicles were placed under contract by the end of 2007. Currently, NASA 
has civil servants and contractors on board for the Constellation 
program serving at all ten Agency Centers, as well as in more than 20 
States. In 2008, NASA will continue efforts to define the specific work 
the Agency's Centers will perform in order to enable astronauts to 
explore the Moon. Preliminary work assignments covering elements of the 
Altair human lunar lander and lunar surface operations, as well as the 
Ares V, were announced in October 2007.
    During 2007, ESMD completed a series of key project review 
milestones, including a System Definition Review for the Orion project 
in August and for the Ares I project in October. During these reviews, 
each project examined how its proposed requirements impact engineering 
decisions for the functional elements of the system. The Orion and Ares 
I teams are currently assessing design concepts, and are moving toward 
finalized reference designs that meets their requirements. This 
reference configuration will be the starting point for the design 
analysis cycle that leads to Preliminary Design Reviews for the Orion 
and Ares I projects, in turn leading to an integrated stack review by 
the end of December 2008. A Preliminary Design Review is a crucial 
milestone, during which the overall program verifies that the 
preliminary design meets all requirements within acceptable risk limits 
and within the cost and schedule constraints.
    In fiscal year 2009, NASA is requesting $173 million for the 
Commercial Crew and Cargo Program and its associated projects. Full 
funding is essential to maintaining NASA's promised $500 million 
investment in this program to spur the development of U.S. commercial 
space transportation services to and from the Space Station, while also 
providing substantial savings to the taxpayer compared to NASA 
Government-owned and operated capabilities. On February 19, 2008, NASA 
announced that the Agency had signed a Space Act Agreement with a new 
funded partner, Orbital Sciences Corporation of Dulles, Virginia. 
Technical progress continues to be made by our other funded partner, 
SpaceX, of El Segundo, California, as well by as several of our 
unfunded partners.
    The Agency's fiscal year 2009 budget request provides $453 million 
for activities in ESMD's Advanced Capabilities theme, which seeks ways 
to reduce the risks for human explorers of the Moon and beyond by 
conducting research and developing and maturing new technologies. In 
2008, NASA's Human Research Program will focus on the highest risks to 
crew health and performance during exploration missions. We also will 
develop and validate technologies that serve to reduce medical risks 
associated with human spaceflight. For example, NASA will continue its 
work to understand the effect of space radiation on humans and to 
develop effective mitigation strategies. During 2008, NASA also will 
continue to research ways to reduce the risks to future explorers. 
Research onboard Space Station will include human experiments, as well 
as biological and microgravity experiments. In 2009, the Advanced 
Capabilities Exploration Technology Development program will conduct a 
range of activities, including testing prototype ablative heat shield 
materials; throttleable Lox Hydrogen engines suitable for a human lunar 
lander; and lightweight life support systems for Orion. The program 
also will deploy and test advanced environmental monitoring systems on 
the Space Station to advance the safety of crewmembers, and will 
continue to test in-situ resource utilization technologies as well as 
life support and cryogenic fluid management.
    In response to Congressional direction contained in the Explanatory 
Statement accompanying the Consolidated Appropriations Act, 2008 
(Public Law 110-161), ESMD will fund in 2008 a robotic lander project 
managed by NASA's Marshall Space Flight Center as a pathfinder for an 
anticipated network of small science landers based on requirements for 
NASA's expanded lunar science program. The first lander mission is 
planned to fly in 2013-2014. NASA's Exploration Systems and Science 
Mission Directorates will continue to work together combining resources 
to ensure that the goals of the science lander are achieved.
    NASA's LRO and the LCROSS have a planned launch later this year 
from Kennedy Space Center. These dual-manifested spacecraft are in the 
assembly, integration, and test phase and are making excellent progress 
toward launch. The knowledge generated by these missions will enable 
future outpost site selection and new information about resources 
within the permanently shadowed craters at the lunar poles. The LRO/
LCROSS missions represent NASA's first steps in returning to the Moon.
    Lastly, facility, infrastructure, property, and personnel 
transitions from Space Shuttle to Constellation continue to be a major 
activity. NASA transition activities are focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. To date, NASA has met all of its 
milestones and disposition targets. This joint effort between the Space 
Operations Mission Directorate and ESMD includes the utilization and 
disposition of resources, including real and personal property, 
personnel, and processes, to leverage existing Shuttle and Space 
Station assets for NASA's future Exploration activities. Formalized 
Transition Boards are working to successfully achieve this outcome. An 
initial Human Spaceflight Transition Plan was developed in 2006. An 
updated NASA Transition Plan, supported by key metrics, is being 
refined and will be released this year.

                  SPACE OPERATIONS MISSION DIRECTORATE

    The Space Shuttle and Space Station programs both enjoyed a highly 
successful and productive year in 2007. The Space Shuttle flew three 
missions during the year, continuing the assembly of the Station and 
expanding its capabilities. The June 2007 flight of Atlantis on STS-117 
added a truss segment and new solar arrays to the starboard side of the 
Station to provide increased power. In August, Endeavour brought up 
another truss segment, supplies, and became the first Orbiter to use a 
new power transfer system that enables the Space Shuttle to draw power 
from the Station's solar arrays, extending the duration of the 
Shuttle's visits to Space Station. On the same mission, STS-118, 
teacher-turned-astronaut Barbara Morgan conducted a number of 
education-related activities aboard the Space Station, inspiring 
students back on Earth and realizing the dream of the Teacher In Space 
Project for which she and Christa McAuliffe trained more than two 
decades ago. In October 2007, Discovery flew the STS-120 mission, which 
added the Harmony node to the Station and featured a spacewalk to 
disentangle a snagged solar array.
    The STS-120 mission paved the way for Station astronauts to conduct 
a series of ambitious spacewalks and operations using the Station's 
robotic arm to move the Pressurized Mating Adapter-2 and Harmony node 
in preparation for the addition of the European Columbus laboratory and 
the Japanese Kibo laboratory in 2008. These spacewalks are particularly 
challenging and impressive, as they are carried out entirely by the 
three-person Expedition crews, without benefit of having a Shuttle 
Orbiter, with its additional personnel and resources, docked to the 
Station.
    NASA continues to expand the scientific potential of the Space 
Station in 2008, a year in which we are delivering and activating key 
research assets from two of our International Partners. In February, 
Shuttle Atlantis delivered the European Columbus laboratory during STS-
122; the recently completed STS-123 mission featured the delivery by 
Shuttle Endeavour of the experiment logistics module portion of the 
Japanese Kibo laboratory, along with the Canadian Special Purpose 
Dextrous Manipulator, or Dextre. Dextre, the final component of the 
remote manipulator system provided by Canada, will act as the ``hand'' 
on the robotic arm, allowing astronauts to conduct operations and 
maintenance activities from inside the Space Station, rather than via 
spacewalks. In May, STS-124 will deliver the pressurized module 
component of the Kibo lab, and in late summer, the crew of STS-125 will 
become the final Shuttle crew deployed to a non-Station orbit, as they 
conduct the last Hubble Space Telescope servicing mission from the 
Space Shuttle. This mission will outfit the telescope with the Cosmic 
Origins Spectrograph and the Wide-Field Camera 3, as well as replace 
components to extend Hubble's operational life.
    The Space Shuttle fiscal year 2009 budget request of approximately 
$3 billion would provide for five Shuttle flights to support assembly 
of the Space Station. This would include the flight of the Japanese 
Kibo laboratory's Exposed Facility, and the delivery of the final 
Station Truss segment.
    The fiscal year 2009 budget request includes about $2.1 billion for 
ISS International Space Station activities, reflecting the presence of 
a permanent six-person crew and three major research facilities aboard 
Station.
    After the Space Shuttle retires at the end of fiscal year 2010, 
NASA will use alternative means to transport cargo and crew to the 
Space Station. The Agency's first choice for such services is domestic, 
commercial capability, the development of which is the focus of the 
Commercial Orbital Transportation Services (COTS) effort. ESMD is 
funding the first phase of COTS under the Commercial Crew and Cargo 
Program, which will demonstrate this capability via funded and unfunded 
Space Act Agreements. SOMD will manage the second phase of the effort, 
covering actual cargo--and potentially crew--delivery services to the 
Space Station. Until such time that operational commercial means are 
available for resupplying the Station, NASA will look to its 
international partners to provide cargo resupply capability, much of 
which will be provided as part of the partners' contributions to the 
International Space Station Program. NASA has contracted with Roscosmos 
to provide Soyuz and limited cargo services through the end of fiscal 
year 2011, as permitted under the Iran, North Korea and Syria Non-
proliferation Act of 2005 (Public Law 109-112). NASA is monitoring the 
progress of potential domestic commercial providers to develop cargo 
and crew transportation services to the Space Station, and the Orion 
project is on track to reach its Initial Operational Capability in 
March 2015. The Administration is considering options to maintain a 
U.S. crew presence aboard the Space Station after the retirement of the 
Shuttle and before the advent of Orion. Purchasing crew transportation 
services domestically is NASA's preferred method to meet the needs of 
the Space Station. Another option may be to seek relief from the 
provisions of the Iran, North Korea, and Syria Non-Proliferation Act of 
2005 for additional Soyuz services to keep a U.S. crew presence on the 
Space Station until either domestic commercial crew transportation 
services, or Orion, become available. We will keep the Congress fully 
informed of our plans.
    NASA remains focused on, and committed to, flying out the remaining 
Space Shuttle missions safely and completing the assembly of the Space 
Station. Beyond those aims, one of the challenges NASA faces as we 
approach the end of the Shuttle era is the smooth disposition of 
personnel and infrastructure. SOMD and ESMD have been working hand-in-
hand to ensure that needed skills and facilities are retained and put 
to productive use during the development and operational phases of the 
Orion, Ares I, and Ares V projects. In fiscal year 2009, the Agency's 
transition milestones will include the transfer of Pad 39B and Mobile 
Launch Platform #1 to Constellation, after the Hubble Servicing 
Mission. In addition, the Space Shuttle Program is reviewing whether 
the Space Shuttle Atlantis will be retired in fiscal year 2008 or used 
to conduct existing missions within the planned manifest.
    The Space Flight Support Program's fiscal year 2009 budget request 
of $733 million would help mitigate out-year costs associated with the 
Delta II launch pads. The request also reflects the consolidation of 
the Agency's space communications projects into the Space 
Communications and Navigation Program. Finally, it includes funding for 
the development of two satellites to replenish the Tracking and Data 
Relay Satellite System, planned for launch in 2012 and 2013.

                               EDUCATION

    The fiscal year 2009 budget request for Education totals $115.6 
million and furthers NASA's commitment to Science, Technology, 
Engineering, and Mathematics (STEM) education. NASA's primary 
objectives for Education are to: (1) contribute to the development of 
the Nation's STEM workforce through a portfolio of initiatives for 
students at all levels; (2) attract and retain students in STEM 
disciplines while encouraging them to pursue higher education that is 
critical to NASA's workforce needs; and (3) engage Americans in NASA's 
mission through strategic partnerships with STEM education providers.
    NASA is committed to ensuring that its future workforce is fully 
prepared to handle a variety of challenging scientific and technical 
careers. NASA's Office of Education encourages student interest in STEM 
through the Agency's missions, workforce, facilities, and innovations 
in research and technology. The fiscal year 2009 budget request 
reflects a balanced portfolio of investments which takes into account 
Congressional priorities, the NASA Strategic Plan, and recommendations 
from the National Research Council, as well as the priorities of the 
education community. NASA Education is the critical link between the 
Agency's scientists and engineers and the education community. NASA 
Education translates the Agency's missions into educational materials, 
services, and opportunities for students and learners of all ages. NASA 
strives to support the role of educational institutions, which provide 
the framework to unite students, their families, and educators for 
educational improvement.
    In 2008, NASA's Office of Education will continue to collaborate 
with Agency Mission Directorates and field Centers to assist educators 
in promoting scientific and technical literacy while attracting and 
retaining students in STEM disciplines and careers. NASA Education will 
also continue its work with other Federal agencies engaged in 
educational activities, along with public and private partners to 
leverage the effectiveness and reach of its efforts.

                          CROSS-AGENCY SUPPORT

    The fiscal year 2009 budget request for activities within Cross-
Agency Support includes funding for developing and maintaining NASA's 
technical capability including the Agency's vital mission support 
functions. Cross Agency Support provides a focus for managing technical 
capability and Agency mission support functions. This budget area 
consists of three themes: Center Management and Operations; Agency 
Management and Operations; and, Institutional Investments. Cross Agency 
Support is not directly identified or aligned to a specific program or 
project requirement but is necessary to ensure the efficient and 
effective operation and administration of NASA.
    The most significant change is in the area of Agency Management and 
Operations. Agency Management and Operations provides for the 
management and oversight of Agency missions and functions and for the 
performance of many Agency-wide activities. Agency Management and 
Operations is divided into five programs: Agency Management; Safety and 
Mission Success; Agency Information Technology services; Innovative 
Partnerships Program; and, Strategic Capabilities Assets Program.
  --The fiscal year 2009 budget request provides $414.6 million for 
        Agency Management which sponsors and supports an executive-
        based, Agency-level functional and administrative management 
        agenda. Agency Management delivers policies, controls, and 
        oversight across a range of functional and administrative 
        management service areas and also provides for independent 
        technical assessments of Agency programs. It delivers strategic 
        planning services. It assesses and evaluates NASA program and 
        mission performance. It sponsors and directs the Institutions 
        and Management agenda in procurement, human capital, real 
        property and infrastructure, security and program protection, 
        diversity, equal opportunity, and small business. Agency 
        Management also provides for the operational costs of 
        Headquarters as an installation, including salaries, benefits, 
        training and travel requirements of the Headquarters workforce, 
        as well as the resources necessary to operate the Headquarters 
        installation.
  --The fiscal year 2009 budget request provides $163.4 million for the 
        Agency's Safety and Mission Success support activities required 
        to strengthen and enable the fundamental and robust cross 
        checks applied on the execution of NASA's mission. The 
        engineering; safety and mission assurance; and health and 
        medical independent oversight and technical authority which are 
        essential to NASA's success and were established in direct 
        response to the Challenger and Columbia shuttle accident board 
        recommendations for independent funding of these efforts. The 
        Safety and Mission Success program directly supports NASA's 
        core values and serves to improve the likelihood for safety and 
        mission success for NASA's programs, projects, and operations. 
        The Safety and Mission Success program includes the corporate 
        work managed by the offices of the Chief, Safety and Mission 
        Assurance (including the NASA Safety Center), Chief Engineer 
        (including the NASA Engineering and Safety Center), the Chief 
        Health and Medical Officer, and the Director of the Independent 
        Verification and Validation Facility.
  --The fiscal year 2009 budget request for Agency Information 
        Technology services is $163.9 million which encompasses cross-
        cutting services and initiatives in IT management, 
        applications, and infrastructure necessary to enable the NASA 
        Mission and improve security, integration and efficiency of 
        Agency operations. In fiscal year 2009 significant emphasis 
        will be placed on consolidation of networks and network 
        management, improved security incident detection, response and 
        management, further consolidation of desktop/laptop computer 
        services, data center assessment for consolidation, and 
        application portfolio management leading to consolidation. NASA 
        is using an enterprise architecture approach to assess current 
        assets, capabilities and costs for services and developing 
        requirements, projects and procurements for transition to the 
        desired consolidated state. Additionally, the underlying 
        infrastructure and systems to instill strong authentication and 
        access to information systems in alignment with HSPD-12 will 
        progress significantly in fiscal year 2009. Critical work will 
        continue under the Integrated Enterprise Management Program to 
        improve business processes by minimizing data redundancy, 
        standardizing information and electronic data exchanges, and 
        processing. Also, NASA will continue participation in several 
        Federal E-Government initiatives and Lines of Business to 
        improve services to citizens and gain efficiencies across the 
        Government.
  --The fiscal year 2009 budget request for Innovative Partnerships 
        Program activities is $175.7 million. This program provides 
        leveraged technology investments, dual-use technology-related 
        partnerships, and technology solutions for NASA. This program 
        also facilitates the protection of NASA's rights in its 
        inventions and the transfer of that technology for commercial 
        application and public benefit. In addition, the Innovative 
        Partnerships Program implements NASA's Small Business 
        Innovation Research and Small Business Technology Transfer 
        Programs which seek out high-technology small businesses to 
        address key technology needs for NASA. The program also manages 
        a Seed Fund to address technology needs through cost-shared, 
        joint-development partnerships. The Centennial Challenges 
        Program, which is also managed by the Innovative Partnerships 
        Program, consists of prize contests to stimulate innovation and 
        competition in new technologies for solar system exploration 
        and other NASA mission areas. NASA has already benefited from 
        Centennial Challenge competitions, and last year awarded 
        $450,000 in prize money for the Astronaut Glove Challenge and 
        Personal Air Vehicle Challenge. The Innovative Partnerships 
        Program also transfers NASA technology for public benefit, as 
        documented in NASA's annual ``Spinoff'' publication. ``Spinoff 
        2007'' documented 39 new examples of how NASA innovation has 
        been successfully transferred to the commercial market place 
        and applied to areas such as health and medicine, 
        transportation, public safety, consumer goods, homes and 
        recreation, environmental and agricultural resources, computer 
        technology, and industrial productivity.
  --Finally, NASA is requesting $28 million in fiscal year 2009 for the 
        Strategic Capabilities Assets Program, a focused activity 
        designed to ensure that critical Agency capabilities and assets 
        for flight simulation, thermal vacuum testing, arc jet testing, 
        and microgravity flight services are available to NASA missions 
        when needed. Strategic Capabilities Assets Program assets are 
        also used by other Government agencies, industry, and academia 
        to improve the Nation's position in the global market place as 
        well as its defense capabilities. The Strategic Capabilities 
        Assets Program budget request covers the direct and associated 
        costs required to sustain key test capabilities and assets 
        including operating staff, preventive maintenance, subsystem 
        repairs, and component replacements required to keep the assets 
        in ``ready for testing'' condition. Incremental costs to 
        conduct specific tests are borne by individual programs and 
        reimbursable customers. The Aeronautics Research Mission 
        Directorate budget request includes $73.9 million for the 
        Aeronautics Test Program (e.g. wind tunnels and flight testing) 
        and the Science Mission Directorate budget request includes 
        $41.9 million for High-End Computing Capability (e.g. the 
        Columbia super computer), which are also managed as Strategic 
        Capabilities Assets. Centralized management at the Agency-level 
        allows NASA to better prioritize and make strategic investment 
        decisions to replace, modify, or disposition these capabilities 
        and assets.

                               CONCLUSION

    NASA has a lot of hard work ahead, but the Agency continues to make 
steady progress in managing its challenges. We are deploying our 
workforce to carry out the great task before us. Last fall, the Agency 
assigned new leadership roles and responsibilities for exploration and 
science missions to NASA's ten field Centers across the country in 
order to help restore the core technical capabilities across the Agency 
as we transition from the Space Shuttle to new capabilities. I ask your 
continued help to ensure that this Nation maintains a human spaceflight 
capability.
    In a short span of years, we have already taken long strides in the 
formulation of strategies and programs that will take us back to the 
Moon and on to Mars and other destinations in our solar system. Indeed, 
a generation from now, astronauts on Mars will be flying and living 
aboard hardware America is funding and designing today, and will be 
building in the near future. This is a heady legacy to which we can 
aspire as we develop the next U.S. human space exploration vehicles. 
The foundation of this legacy will include work we plan to carry out in 
fiscal year 2009.
    As I said earlier in my testimony, NASA is committed to executing 
the exciting programs and projects within the President's fiscal year 
2009 budget request. Having reached a steady state on a balanced set of 
priorities, we now have a sense of purpose to make steady progress 
toward achieving our goals for continued leadership in space 
exploration, scientific discovery, and aeronautics research.
    Chairman Mikulski, with your support and that of this Subcommittee, 
we are making the right strategic choices for our Nation's space 
program. Again, thank you for the opportunity to appear before you 
today. I would be pleased to respond to any questions that you may 
have.

                  PRESIDENT'S FISCAL YEAR 2009 BUDGET REQUEST SUMMARY BY APPROPRIATION ACCOUNT
                                   [Budget Authority, in millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal year--
                 By theme                 ----------------------------------------------------------------------
                                             2007       2008      2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Science..................................   4,609.9   4,106.2    4,441.5   4,482.0   4,534.9   4,643.4   4,761.6
    Earth Science........................   1,198.5   1,280.3    1,367.5   1,350.7   1,250.9   1,264.4   1,290.3
    Planetary Science....................   1,215.6   1,247.5    1,334.2   1,410.1   1,537.5   1,570.0   1,608.7
    Astrophysics.........................   1,365.0   1,337.5    1,162.5   1,122.4   1,057.1   1,067.7   1,116.0
    Heliophysics.........................     830.8     840.9   \1\ 577.     598.9     689.4     741.2     746.6
                                                                       3
                                          ======================================================================
Aeronautics..............................     593.8     511.7      446.8     441.8     482.4     486.1     467.7
                                          ======================================================================
Exploration..............................   2,869.8   3,143.1    3,500.8   3,737.7   7,048.2   7,116.8   7,666.8
    Constellation Systems................   2,114.7   2,471.9    3,048.2   3,252.8   6,479.5   6,521.4   7,080.5
    Advanced Capabilities................     755.1     671.1      452.3     484.9     568.7     595.5     586.3
                                          ======================================================================
Space Operations.........................   5,113.8   5,526.2    5,774.7   8,872.8   2,900.1   3,089.9   2,788.8
    Space Shuttle........................   3,315.3   3,266.7    2,981.7   2,983.7      95.7  ........  ........
    International Space Station..........   1,469.0   1,813.2    2,060.2   2,277.0   2,176.4   2,448.2   2,143.1
    Space and Flight Support.............     329.2     446.3   \2\ 732.     612.1     628.0     641.7     645.4
                                                                       8
                                          ======================================================================
Education................................     115.9     146.8      118.6     126.1     123.8     123.8     123.8
                                          ======================================================================
Cross-Agency Support.....................   2,949.9   3,242.9    3,299.9   3,323.9   3,363.7   3,436.1   3,511.3
    Center Management and Opera-  tions..   1,754.9   2,013.0    2,045.6   2,046.7   2,088.0   2,155.3   2,211.6
    Agency Management and Opera-  tions..     971.2     830.2      945.6     945.5     939.8     950.5     961.3
    Institutional Investments............     223.8     319.7      308.7     331.7     335.9     330.4     338.3
    Congressionally Directed Items.......  ........      80.0   ........  ........  ........  ........  ........
                                          ======================================================================
Inspector General........................      32.2      32.6       35.5      36.4  ........      38.3      39.2
      Fiscal Year 2008 Rescission  \2\...  ........    (192.5)  ........  ........  ........  ........  ........
                                          ======================================================================
      NASA Fiscal Year 2009..............  16,285.0  17,309.4   17,614.2  18,026.3  18,460.4  18,905.0  19,358.8
----------------------------------------------------------------------------------------------------------------
\1\ Deep Space and Near Earth Networks Transfer $256 million to SFS in fiscal year 2009.
\2\ Fiscal year 2008 Appropriation rescinded $192.475 million in prior-year unobligated balances, effectively
  reducing fiscal year 2008 authority. Not included in totals.

Fiscal year 2008 budgets are the enacted levels per the fiscal year 2008 Appropriation as shown in the Agency's
  fiscal year 2009 Budget Estimates. Totals may not add due to rounding.
2008 budgets include all direct costs required to execute the programs. Indirect costs are now budgeted within
  Cross-Agency Support.

                      SPACE TRANSPORTATION SYSTEM

    Senator Mikulski. First of all, I know this was your oral 
testimony, which was more of a rhetorical document than a 
budget statement. So, we will put into the record your full 
testimony to the subcommittee, which I think went into very 
specific detail. We have the written testimony, which I know 
was vetted by OMB and powers that be, and it outlines the 
budget aspects that we want.
    We too agree with your statement that says we must not make 
promises we cannot keep and carefully consider any new missions 
to ensure that they are affordable. Dr. Griffin--this is not 
directed at you, but really your predecessor and the White 
House--I agree with that. So, when they embarked upon the Mars 
mission, for which the Congress was not critical, they never 
gave us any money. So, we are very frustrated that we were 
given an assignment without the money and falling upon us to 
come up with the money.
    So, I would agree with the premise let us not make promises 
we cannot keep and consider the affordability of any new 
missions. Well, we were given a new mission. A promise was made 
just like the promise was made on the Space Station. We got all 
those international partners involved, and now we wonder how in 
the hell are we going to get there. So we are cranky. We are 
not cranky with you, but we are cranky because we keep feeling 
like we are being set up and then it comes to us.
    So we note your question about leadership, but we are not 
in here to finger-point today. We are into pinpointing our path 
forward. But I want to set the record straight, that a promise 
was made to go to Mars, but no money was given to us. The 
Gehman Commission outlined--and it cost NASA $2-plus-billion to 
return to space and return to space in a way that was safe for 
our astronauts, which always needs to be a national obsession. 
And no money back for the replacement costs paralleling the 
Challenger. So those for us are the big issues.
    We went to the Space Station at the request of President 
Bush I and we have sustained that. And we have had difficulty 
paying for it since in two administrations. Now, this one gave 
us a Mars mission without the wallet.
    So we appreciate your observation. We presume it is not a 
lecture. And number three, we are cranky because we keep 
getting missions and no wallet, and I know you must feel the 
same way.
    That takes us, though, to really the heart of what you are 
saying which is a reliable space transportation system. That 
goes to the transportation system to replace the Shuttle 
because without a reliable transportation device, we cannot do 
any of the things, whether it is the return to the Moon or 
beyond.
    Could you share with us because everyone is deeply 
concerned about the gap? I would like to go through some of the 
questions about the gap. I am going to say two things. One, 
colleagues both here and in the House are saying, well, why do 
we not give them more money and close the gap? So, I am going 
to ask if that is a realistic possibility if money were not the 
problem, just with sound engineering principles.
    And then number two, as you know, there are some members in 
the House who are raising the concept of extending the life of 
the Shuttle until 2015.
    So, let us go with acceleration. What could we, putting 
money aside, because I will come back to show me the money 
because that is what this is--can we accelerate or close that 
gap in a prudent way and not just be throwing money at it? And 
then what you think of the idea of extending the Shuttle until 
2015.
    Dr. Griffin. Yes, of course, Senator Mikulski. Thank you. 
Let me start out by saying just for the record that if anything 
in my oral statement came across as presuming to lecture the 
Congress, that was not my intent. I was calling for the 
leadership that I know that you know we need and have provided, 
but certainly not lecturing the Congress.
    But to answer the specifics of your questions, with regard 
to closing the gap, at this point with 65 percent statistical 
confidence, we are budgeted to deliver Orion and Ares for 
operational capability to the Space Station in March 2015. We 
have been asked by your colleagues in the Senate, as well as 
your colleagues in the House, if that could be improved. We 
have answered for the record, and I will give you the outlines 
of that answer now. At a cost of about $2 billion total over 
the next couple of years, it would be possible to bring March 
2015 back into, let us say, the late fall of 2013. So we could 
improve the schedule by about 15 to 16 months at this point at 
a cost of $2 billion.
    In general, as a rough guide for your planning, every $100 
million extra that is put into the program improves the 
schedule by just about 1 month. So on the record, that is the 
best we have been able to determine.
    Senator Mikulski. It seems like about $1 billion a year.
    Dr. Griffin. Yes, ma'am. That is correct. Now, we cannot, 
for any amount of money, get back earlier than the fall of 
2013.
    Senator Mikulski. So using $1 billion as a rule of thumb 
per year, even if we came up with $5 billion--highly unlikely--
you could not----
    Dr. Griffin. The earliest technically achievable date at 
this point----
    Senator Mikulski. Would be 2013.
    Dr. Griffin [continuing]. Given the water over the dam 
behind us, would be late 2013.
    Senator Mikulski. Okay.

                  EXTENDING THE SPACE SHUTTLE LIFETIME

    Dr. Griffin. Now, in answer to your second question, my 
opinions about extending the lifetime of the Shuttle, my 
opinion is we should not do that. They are founded on several 
different principles. The first is that as I believe we all now 
know and as Admiral Gehman pointed out in the CAIB report, the 
Shuttle is an inherently risky design. We currently assess the 
per-mission risk as about 1 in 75 of having a fatal accident. 
If one were to do as some have suggested and fly the Shuttle 
for an additional 5 years, say, two missions a year, the risk 
would be about 1 in 12 that we would lose another crew. That is 
a high risk. We have elected as a Nation--the administration 
has decided and the Congress has concurred, and I believe that 
concurrence was absolutely correct--that we will complete the 
Space Station. But it is not being done without risk. To fly 
the Shuttle after the Space Station is completed for any 
significant length of time I believe would incur a risk I would 
not choose to accept on behalf of our astronauts.
    Now, flying the Shuttle after the 2010 retirement date has 
other effects. It costs about $3 billion a year. You, ma'am, 
referenced just a few moments ago that our request this year to 
fly the Shuttle was $3 billion. I would rather see, if my 
opinion were being sought, extra money made available, if that 
were the case, to accelerate existing systems. If extra money 
were not made available, and the $3 billion had to come out of 
hide--as you mentioned, the return to flight costs of $2.7 
billion was taken out of hide. If that were done again, every 
$100 million that comes out of the new systems extends their 
schedule for 1 month. On the back end of the program, we lose 
1\1/2\ months. So if you delay Constellation by 1 year today, 
in order to fly the Shuttle for another year, then you delay 
Constellation by 1\1/2\ years on the back end. So you do not 
ever narrow the gap. You extend the gap if you fly the Shuttle 
longer.
    Senator Mikulski. Well, that is an important thing. So, 
trying to keep the Shuttle going beyond the current designated 
time is high risk----
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski [continuing]. High expense.
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski. And the very goal we want to have, which 
is not to have a gap, we once more exacerbate.
    Dr. Griffin. Yes, ma'am.

                            RETURN TO FLIGHT

    Senator Mikulski. I got it.
    Did Admiral Gehman, when he looked at the return to flight 
as part of the review after the accident, look at this 
possibility?
    Dr. Griffin. Well, they did. Around pages 209 and 210 of 
volume I of the CAIB report, they devoted considerable 
discussion to the future of the Shuttle. I happen to have a few 
of those quotes with me. I am given to using them in speeches 
for just these purposes.
    But Admiral Gehman pointed out--and I will quote for the 
record here--``because of the risks inherent in the original 
design of the Space Shuttle''--and I will skip a couple of 
points that do not matter--``it is in the Nation's interest to 
replace the Shuttle as soon as possible as the primary means of 
transporting humans to and from Earth orbit.''
    Admiral Gehman also points out that ``there is urgency in 
choosing the design after serious review of a concept of 
operations for human space flight and bringing it into 
operation as soon as possible. This is likely to require a 
significant commitment of resources over the next several 
years. The Nation must not shy from making that commitment.''
    Senator Mikulski. Well, of course, we will look to the 
wisdom of working with their authorizers and you. But based on 
our conversations, both in preparation for this hearing and 
here, I really could not support the extension of the Shuttle 
to 2015.
    What I want to do is, working on a bipartisan basis, see 
what we can do to prudently, both from an engineering and 
technology perspective and from a fiscal perspective, 
accelerate. Look to see if we cannot find the funds to 
accelerate closing the gap and the framework that I believe 
NASA already is thinking about and could do. So, we would have 
a plan A which would be to close the gap to 2013, which in and 
of itself would be pretty terrific. And plan B would be to stay 
the course, which would be the minimum threshold.
    So from my perspective, again, working with Senator Shelby, 
Senator Nelson, Senator Hutchison, those of us involved, really 
the authorizing and so on, our goal would do that. I cannot 
speak for my colleagues, but speaking for myself, I would not 
envision trying to keep the Shuttle going. I think the risk is 
inherent and the national goals are not that which we want to 
accomplish.

                 RELYING ON RUSSIAN ``SOYUZ'' SERVICES

    That takes me to using the Soyuz. Whatever it is, we are 
currently relying on the Soyuz. So could you tell us where we 
are? Do we not have some treaty issues? I mean, you and I are 
not State Department wonks here, but do we not have kind of 
anti-proliferation compliance? As a member of the Intelligence 
Committee, I cannot be out of compliance with proliferation 
issues. Where are we with that? And what is required and where 
are we? And can the subcommittee help facilitate this?
    Dr. Griffin. Thank you. Yes. They are excellent questions 
there. First, we need Russian Soyuz services today at a minimum 
for crew rescue capability on board the station. The Shuttle is 
not a lifeboat. So until we have a qualified replacement 
system, Orion and Ares, qualified for 6 months of flight and 
therefore can serve the lifeboat function, we will be dependent 
upon the Russian Soyuz system for crew rescue from station.
    Second, after the retirement of the Shuttle in 2010, the 
only mechanism for crew transport will be the Russian Soyuz 
system.
    To your point out treaty obligations, we have the INKSNA, 
the treaty that I mentioned and to which you referred, for 
control of space technology and missile technology 
proliferation, which prevents the purchase of certain goods and 
services from Russia for the Space Station program. We are 
currently operating under an exemption to that treaty. It ends 
on December 31, 2011. So until the end of 2011, we can purchase 
Progress cargo delivery services and Soyuz crew transport 
services. There is about a 3-year lead time for the Russians to 
produce a new Soyuz. So, if in 2012 we wish to have crew 
transportation for ourselves and our partners to whom we have 
treaty obligations, then by around early 2009, hopefully 
sooner, we need to have agreements in place with Russia. To 
accomplish that, I need to furnish to the Congress, within a 
very short period of time, a request from the administration 
for a continued exemption to the treaty.

        IRAN, NORTH KOREA, SYRIA NON-PROLIFERATION ACT (INKSNA)

    Senator Mikulski. Well, yes. Again, going back to my 
opening statement, this is a year of transition. Our new 
President does not take office until January 20 or 21, and we 
need to have this done in this current administration. It would 
be the hope of this subcommittee, working with our colleagues 
on Foreign Relations, Senators Biden and Lugar, who are experts 
on the proliferation issue--we would like to move this.
    When do you think we can expect a request from the 
administration?
    Dr. Griffin. I believe, Senator Mikulski, that it is 
imminent. We have spoken with them just yesterday. The last 
elements of coordination within the White House are ongoing as 
we speak. We are working with them to get that to the Congress 
as quickly as we can.
    Senator Mikulski. Well, over the next few weeks, we will be 
meeting with Secretary Rice on a variety of issues. So if we 
get bogged down, this subcommittee would like to offer a way of 
working with you and the administration to get it unstuck and 
over here for review by Senators Biden and Lugar so that we can 
move ahead with this. Okay?
    Dr. Griffin. Thank you very much.

                     ``SOYUZ'' LAUNCH CAPABILITIES

    Senator Mikulski. Now, this though then goes to COTS. So 
right now we can accelerate, if we put in $2 billion, to 2013. 
We have got the Soyuz. What is the astronaut capability of the 
Soyuz to take people up, not the rescue mission, but what is 
the max number of astronauts they can take up?
    Dr. Griffin. Well, the crew capacity on a given Soyuz 
launch is three. So obviously to sustain a crew of six, we need 
two Soyuz systems flying in rotation to maintain the crew of 
six that we go to in April 2009.
    Senator Mikulski. And how much are the Russians charging us 
per flight? Did they talk about that yet? Because they now have 
a monopoly.
    Dr. Griffin. Yes, they do. Our current contract calls for 
payments for Soyuz seats and progress flights through the end 
of 2011 of $780 million.

               COMMERCIAL ORBITAL TRANSPORTATION SERVICES

    Senator Mikulski. And that will go back and forth. Well, we 
will go into that in more detail.
    Let us go to COTS. Could you outline what the budget 
request for COTS is? What do you think we buy for it, and do 
you think that is sufficient? And is COTS an answer in terms of 
beefing up COTS to take people up there where we would have our 
own kind of version of a Soyuz, in other words, not the full go 
to the Moon and so on, but really a Space Station vehicle which 
COTS is? Can you share with us those views? Because there is a 
lot floating around that COTS could be the answer to the gap.
    Dr. Griffin. COTS, commercial orbital transportation 
services, is a program that I initiated upon rejoining NASA on 
this occasion. I did so because I believe very strongly--I 
believe two things, that we need a strong Government 
development program for Orion and Ares to guarantee that we 
have the capability to get to Earth orbit again and to go to 
the Moon, as Admiral Gehman discussed. But I also believe that 
we need to stimulate, wherever possible as a matter of 
Government policy, provide rewards for the development of 
commercial capability available for purchase by the Government, 
but on an arm's length basis.
    So the purpose of the program was to provide some, not all, 
of the money necessary for new systems development to reach 
Earth orbit, allowing companies to use that leverage of 
Government funds to seek other investment, and to bring to bear 
new capabilities.
    We are focusing on initially cargo because I just want to 
be clear with everybody. We actually have a mechanism to get 
crew to the Station with the Soyuz system, but unless we can 
bring some new commercial capabilities online, we really have 
no cargo resupply. So actually of the two, the most important 
COTS capability to me right now is cargo, and I must be honest 
about that.
    However, COTS is a program with four different phases to 
it, and phase D is human transportation. And yes, we would very 
much like to see a capability developed from U.S. commercial 
suppliers to provide crew transport to and from the Space 
Station, and I do believe that can be a solution going forward.
    I do not believe that even with their best efforts and even 
if more money were provided, that COTS crew transportation 
capability will arrive in time to be available after the 
Shuttle retires or even by the end of the current contract with 
Russia in 2012. So I do not believe that it will be available.
    Senator Mikulski. So what you are saying is there is no 
silver bullet or there is no magic potion available to close 
the gap.
    Dr. Griffin. Ma'am, I do not know of one.
    Senator Mikulski. So extending the life of the Shuttle is 
not a reasonable option.
    COTS, which is very promising technology--its first 
priority is cargo because that is what is needed to sustain the 
astronauts when we get them up there. Without a cargo vehicle, 
the cost is prohibitive. We cannot use Soyuz for cargo at the 
cost of the Soyuz, and I do not think it would be big enough 
for cargo.
    Dr. Griffin. That is correct.
    Senator Mikulski. So we need COTS to do the sustainability 
of the astronauts.
    At the same time, sure, COTS has promise, but you want to 
make sure that what is firmly in place is the cargo capability, 
but while they are developing their technologies, of course, we 
would look forward to possibilities of adding a human element. 
But that is an add-on to the mission.
    Do I have it down right?
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski. What I am really getting to is people are 
fishing around--not fishing. I should say searching. That was 
not a good use of the word. Genuinely searching because of the 
gap. And like everything else we do in this Government, we have 
regrets about, oh, why was this not all thought about. But we 
are where we are.
    So what you are saying is that right now the only reliable 
transportation system after 2010 will be Soyuz. So we have to 
work with the Russians, get our treaty in place, et cetera. We 
have got to keep COTS on track no matter what because that is 
the cargo. Even during the gap, we can sustain our American 
presence, and we will have an American vehicle in space. So it 
will not be like we are just sitting on the tarmac.
    Am I correct?
    Dr. Griffin. Yes.
    Senator Mikulski. But there is no magic potion to close the 
gap. The only prudent fiscal way to go is accelerate Ares and 
Orion by 2 years and, at the same time, keep COTS on track so 
we have the cargo capability. So, from the standpoint of fiscal 
reality and engineering sensibility, that would be the way to 
go.
    Dr. Griffin. Ma'am, I think you have it perfectly.

                   SPACE SHUTTLE WORKFORCE TRANSITION

    Senator Mikulski. Well, the reason I took such a long time 
in asking these questions is there are a lot of ideas in the 
ethers out here and I wanted to be able to do that.
    Now, my last question on this is what is the plan for the 
workforce transition when the Shuttle is retired? And I am 
talking about at Kennedy. It is of deep concern, of course, to 
our two colleagues from Florida. You know, we ask people to go 
into science and engineering. There have been people who have 
been working at Kennedy. They have given their life's work 
through good times and wrenching times. We remember the brave 
way they responded during Hurricane Katrina to keep everything 
in place. I mean, it is a wonderful talented, group of people, 
and we do not want to leave them hanging by their thumbs.
    Dr. Griffin. Well, we do not, and I know that your 
colleagues from Florida are concerned. But I too am concerned. 
I am the Administrator of this agency, and that is my 
workforce. So I am concerned as well.
    Before I answer your question about what our plans are, I 
would like to note a positive thing for the record, if I might. 
I just received word that the planned docking of the European 
automated transfer vehicle, which is a cargo delivery vehicle 
to the Space Station in support of European obligations to the 
partnership, just successfully docked with the Space Station 
for the first time on its maiden flight. This accomplishment of 
an automated rendezvous and docking is the first by any nation 
other than Russia and brings our European partners fully on 
line as full partners in the Space Station. It is a magnificent 
accomplishment for the partnership.
    Senator Mikulski. We salute our European colleagues.
    Dr. Griffin. I think they deserve every bit of that.
    Now, to answer your question about our workforce, we are 
obligated to the Congress for a report twice a year. Every 6 
months we must report on our transition plans to retire Shuttle 
and bring Ares and Orion online. We submitted the first of 
those per requirement on Monday, and it showed, among the 
contractor community at Kennedy Space Center, over the years 
the worst case scenario of a reduction of some 6,400 or so jobs 
over the years following retirement of the Shuttle.
    Now, for the record, I must point out to this subcommittee 
that those projections are projections which are obtained by 
forecasting the job reductions from retirement of the Shuttle, 
but they do not forecast the job increases as we bring on a 
future lunar development program. So as we begin to get out of 
Shuttle and station operations, we are fairly well able to 
forecast who we will lose, but----
    Senator Mikulski. But is that the same workforce?
    Dr. Griffin. Well, it will not be the same people. It will 
be a different skill mix.
    Senator Mikulski. That is what I mean.
    Dr. Griffin. The Shuttle workforce, in terms of Shuttle 
operations, will be a much smaller operational workforce for 
Ares and Orion. That was a goal of retiring the Shuttle.
    When we put new work down at Kennedy Space Center, it will, 
in some respects, require different kinds of skills. So we have 
the option--the companies have the option of retraining people, 
but many people will be moving to take other jobs and new 
people will be moving in to take new jobs.
    Senator Mikulski. Well, Dr. Griffin, this is a conversation 
I really want to have Senator Shelby participate in and also 
our space authorizing team, Senator Nelson. We know that 
Senator Landrieu is deeply concerned about the Michoud issue 
where I think we estimate that there could be 1,000 more there.
    Really then, what do we anticipate and what is it really 
going to take? Are we looking at retirements and therefore a 
steady glide path? Are we looking at retraining? Because we 
will have to give you money to do retraining as we are doing 
that. And we have got to look at how we are all moving in the 
same way. Just as you have your engineering plans and you have 
your critical path, we need to have the same critical path for 
our social--I hate to use the term ``social'' engineering, but 
our social plan, which is who is going to leave, who is going 
to stay to do the job they are doing, who is going to be 
retrained, what are we bringing on, and then how is this going 
to be paced and what is it then you would need from us with the 
workforce issues because we need people as well as our 
technology.
    So, let us schedule that after we complete our hearing.

                         OVERALL SCIENCE BUDGET

    Moving on, though, I want to go now to science. NASA's 
budget shows a flat science budget this year and also for the 
next 5 years. Some are winners like Earth science and planetary 
science. Others seem to not do as well, astrophysics and 
heliophysics.
    Is where we are on the budget enough to meet our existing 
obligations to science and continue the development of new 
ones? In other words, we have things underway, whether it is 
Hubble--I worry about ICESat.
    You know what everybody is excited about, of course, is the 
mission to our own planet Earth. I have been meeting with 
people. Senator Boxer has too in her global warming 
initiatives. Every scientist or environmental minister is crazy 
about NASA and also about the National Science Foundation (NSF) 
and about National Oceanic and Atmospheric Administration 
(NOAA). Because of our size, our scope, and our talent, we have 
become the indispensable nation in terms of the science that we 
do for our planet. Therefore, anything that we are going to do 
to solve the problems of our planet has to be rested on that.
    So we worry about that and do we have enough to do what we 
are doing? Could you comment on it? Because we see you and 
NOAA, working with the NSF and National Institute of Standards 
and Technology, we save lives and we are saving the planet.
    And what an incredible role of public diplomacy. You and I 
are sitting here talking about treaties with the Russians on 
making sure we do not proliferate, but those school kids in 
Australia or South Africa or Southeast Asia are looking at the 
same Hubble as the south Baltimore kids. The Danish 
environmental minister is looking at the Hubble stuff the way 
they are looking at the NOAA stuff over in India.
    So we know that Secretary Rice thinks she is the diplomat, 
but so is NASA. And we view Hubble as one of our first 
technological diplomats.
    So, my point is that where are we in terms of what we 
continue to do and in these new missions.
    Dr. Griffin. Well, Senator, although you did not ask, I 
could not agree with you more about the value of our space 
program as an instrument of positive American image and 
diplomacy in the world. Truthfully, over 60 percent of our 
science missions are done on a collaborative basis with other 
nations. Sometimes we supply an instrument. Sometimes we supply 
the major part of the spacecraft. But either way the 
collaborations that we do work, and they work for the United 
States and for everyone in the world.
    Now, our science budget. I need to say a couple of things. 
First of all, our science budget as a fraction of our portfolio 
is around 32 percent this year, and it is at historically high 
levels. So science is well funded at NASA. It is not growing as 
much as we would like until 2011 when we retire the Shuttle. 
Science resumes its growth at the top line starting in 2011.
    As you noted yourself, in these current years, our entire 
NASA top line growth is only 1.8 percent, and so for science to 
be slightly less than that is not a major difference between 
the agency's top line and the science portfolio top line.
    We are budgeted to meet the commitments that we have made, 
everything from Hubble and James Webb down to the Mars science 
lab and other things in other divisions of our science 
portfolio. We are budgeted to meet the commitments we have made 
to you.
    Certainly it is always possible, just as in our human space 
flight program, more money will buy more product. And there are 
always more new and interesting and fascinating science 
missions to do. But we have a rich plate of missions, and I 
believe that we are adequately funded to execute the ones we 
have said we will execute.
    Earth science did receive an increase this year I think in 
respect to the Earth science decadal. That is something we 
wanted to do. I was one of the people calling for a decadal 3 
years ago and now we have one, and we are pleased with it. We 
have revamped our Earth science portfolio to respect that 
decadal. But at the same time, astrophysicists and planetary 
scientists and heliophysicists also have decadal surveys, and 
we try to honor those missions as well.

                        EARTH OBSERVING SENSORS

    Senator Mikulski. Well, first of all, that is heartening to 
hear, and know that we have just a great passion about this.
    I know you are so busy.
    You know, there are things I want to talk about with both 
science and education. Let me come back to I think a very 
poignant moment.
    The National Academy of Science. This goes to what they 
tell us they are concerned about. According to the National 
Academy, 40 percent of the Earth-observing sensors that are now 
in orbit will cease to function by the end of the decade unless 
they are replaced. And my question is, well, what does that 
mean? And what is NASA's plan to replace those sensors and 
satellites? In other words, do we have the money to even 
continue to do the pretty spectacular work we are already 
doing?
    Dr. Griffin. Right. We are in a difficult period right now. 
If you look at the sensor level on Earth sciences for climate 
research and environmental monitoring, we are in a difficult 
period because, as you know, the Department of Defense, the 
NOAA, and NASA NPOESS program being executed by the Air Force 
encountered some severe cost problems. And so the NPOESS 
spacecraft have been descoped. This has been the subject of 
other hearings before other committees of this Congress.
    Senator Mikulski. I know.
    Dr. Griffin. And so the climate research sensors that were 
originally planned to go on NPOESS will now not fly on NPOESS. 
Now, we have known this for over 1 year. We have been 
scrambling to try to find ways to remanifest those climate 
research sensors on other missions, and we are doing that. But 
the recovery plan from the NPOESS descope of climate research 
sensors cannot happen instantaneously. Moreover, NASA was not 
budgeted for these additional climate research sensor flight 
opportunities because that budget went to NPOESS.
    So in the White House and at NASA, by all means, we do 
recognize the seriousness of the concern about replacing the 
climate research sensors on orbit today. That was one of the 
originally intended purposes of NPOESS and we are having to 
find other ways to do it. And we are working that plan as 
aggressively as we are able.

  NATIONAL POLAR-ORBITING OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM 
                                (NPOESS)

    Senator Mikulski. Well, the subcommittee and its staff 
would like to have an ongoing conversation with you about this. 
First of all, we are very concerned about NPOESS.
    Dr. Griffin. Yes, ma'am.
    Senator Mikulski. We have raised it and it has been an 
enormous challenge. Of course, our overall satellite 
capabilities are of growing concern.
    But let me go to our accountability issue, and then we will 
conclude shortly. The Congress is going to have a commemorative 
ceremony noting the melancholy event that occurred 40 years ago 
tomorrow with the assassination of Dr. King. Both the House and 
Senate will gather for just a moment of reflection and really 
renewal to a commitment against violence in the world.
    NASA has informed us that of 12 science missions that are 
under development, 4 are over budget and 8 are behind schedule. 
We would like to talk with you about that in more detail as we 
look at this, one, maintaining the schedule but also where 
those four missions are over budget. We are not going to go 
into that because, again, I want to join my colleagues.
    I know Senator Shelby wanted to also ask about aeronautics 
and about education. The aeronautics is part of the NASA 
mission in education. So, we will follow up with aeronautics as 
we talk about it when we come together. Education, of course, 
continues to be such a major role at NASA.

                       CHAIRMAN'S CLOSING REMARKS

    And I just want to tell you a story before we conclude 
about what your NASA Goddard people did that was so 
spectacular. We, in Baltimore, are the home to the National 
Federation of the Blind. It is their global headquarters.
    Some years ago, a wonderful Ph.D. by the name of Dr. 
Zabrowski, who just passed away, wanted to move the blind into 
the future and the new economy. Over 40 percent of all blind 
people live below poverty level because they do not have access 
to education that often takes them into the new careers. So, 
they did that. And one of the things they wanted to do was see 
if blind kids could have access to information about astronomy.
    On a modest grant of $50,000 from Goddard, working with the 
National Federation of the Blind, the Goddard Genius Club, and 
the Smithsonian Institution, we have now produced a textbook 
for blind kids, for middle school and high school, on 
astronomy. It is called ``Touching the Invisible Sky.'' And 
when you see this book--have you seen it?
    Dr. Griffin. I have seen it, ma'am. It is incredible.
    Senator Mikulski. It is incredible. The text is in Braille, 
but the pictures of the Hubble and other cosmic photographs are 
in these raised images that is having a profound impact.
    And when I went to Dr. Zabrowski's memorial service and 
told the gathering over 600 people about this book and 
presented a copy in behalf of all of us to their library--but 
it will be widely disseminated--the audience response was 
overwhelming. And the response afterwards, as people came up, 
parents were talking about they do not know if their kids will 
be astronomers, but they know that they could go into science. 
They could go into technology. If you are blind, you can hear 
very well. There are jobs and everything from national security 
to other things.
    So, you know, this is really about changing lives, 
transforming lives, and so on. And NASA is doing such great 
work. If we take the time for a modest $50,000 and transform 
opportunities for blind children--and once again, it will 
happen not only for our kids here in our own country, but this 
will go to south Baltimore and South Africa and so on. I mean, 
I think this is what we are all about.
    So, we want to go to the Moon and we want to get out there 
to Mars, return our astronauts safely. And we want to see what 
we can do to help you.
    So, I think we have covered our testimony today. I was kind 
of doing double dutch here. We will continue our conversations 
with you.
    We hope to have our bill ready. We view the President's 
request as the minimum threshold. We are going to see what 
other ways, given our allocation, we can add to this to 
accelerate our capabilities of closing the gap, as well as 
improving our science and aeronautics capability and see what 
we can do. I also will pursue adding that amendment for another 
$1 billion as emergency funding.
    So, since there are no further questions--and do not think 
that because my other colleagues are not here they are not 
interested. Many are chairing their own hearings on our 
accelerated schedule, and others are involved in the mortgage 
foreclosure.

                     ADDITIONAL COMMITTEE QUESTIONS

    So, since there are no further questions--and Senators may 
submit questions for the subcommittee's official record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Richard C. Shelby

                          ROBOTIC LUNAR LANDER

    Question. I am pleased to see the budget request has a proposed 
lunar robotic lander mission for the Moon. This proposal comes on the 
heels of funding provided by this committee that followed 
recommendations from the National Research Council.
    Can you expand on what this mission will entail and how the 
workload will be distributed and managed for this mission?
    Answer. The Science Mission Directorate (SMD)-sponsored Lunar 
Science Program Office at Marshall Space Flight Center (MSFC) will 
provide program management for the Lunar Science Program, consisting of 
a small-sat lunar orbiter and a series of mini-landers. The Lunar 
Science Program Office will establish a mini-lander project, also to be 
located at MSFC, using the capabilities of the LPRP office to conduct a 
phase A and begin Phase B. In fiscal year 2008-2009, the focus of the 
mini-lander project will be on defining the mini-lander design through 
Preliminary Design Review. As appropriate for the missions, SMD will 
define significant roles for the Applied Physics Lab (APL), Ames 
Research Center (ARC), the Goddard Space Flight Center (GSFC) and the 
Jet Propulsion Laboratory (JPL).
    Question. When do you anticipate this mission and will be ready to 
go to the moon?
    Answer. The first two mini-landers, which will be developed by MSFC 
and the APL, are envisioned to be launched in the 2013-14 timeframe. 
Further definition will be undertaken as part of the Pre-Phase A 
identified in the previous question.
    Question. Is there potential for these landers to be the first in a 
series of similar missions?
    Answer. It is envisioned that these landers will be the backbone 
nodes of an International Lunar Network providing a series of 
standardized seismic, heat flow, and other scientific measurements 
(provided by both the United States and international partners). In 
addition, Exploration Systems Mission Directorate (ESMD) and SMD will 
cooperate on the definition of key enabling technologies that might be 
suited for flight on one or more of the mini-landers.

                             EDUCATION CUTS

    Question. How can we take the ACI model and apply it to NASA 
education programs to encourage students to want to become future 
scientists and engineers?
    Answer. NASA Education is taking steps that align with the ACI 
model to encourage students to enter STEM fields.
    The following activities reflect direct action based on the 
recommendations of the ACI:
  --Pursuant to Conference Report accompanying the America Competes 
        Act, NASA is required to submit to Congress and the President 
        an annual report describing the activities conducted pursuant 
        to Section 2001 of the America COMPETES Act, including a 
        description of the goals and the objective metrics upon which 
        funding decisions were made. NASA will submit the first of 
        these reports in January 2009.
  --Also pursuant to Section 2001, NASA will submit a plan for 
        assessing the effectiveness of the Agency's science, 
        technology, engineering, and mathematics education programs in 
        improving student achievement, including with regard to 
        challenging State achievement standards.
  --NASA is utilizing the Undergraduate Student Research Program to 
        support basic research projects on STEM subjects.
  --NASA is also leading the interagency ISS Education Coordination 
        Working Group, with its concept plan, ``An Opportunity to 
        Educate: ISS National laboratory,'' which was submitted to 
        Congress on June 20, 2008. The Working Group is also in early 
        discussions with other interested agencies that are not formal 
        participants.
    Pursuant to direction included in the Explanatory Statement 
accompanying the fiscal year 2008 Consolidated Appropriations Act, 
NASA's Office of Education will soon release a competitive solicitation 
to the university community, based upon recommendations from Earth 
Science and Application from Space: National Imperatives for the Next 
Decade and Beyond, prepared by the National Research Council in 2007.
  --The solicitation will address innovative opportunities for 
        educating students on global climate change with a special 
        component focusing on teacher education preparation (pre-
        service).
    NASA is also pursuing other interagency activities that will 
facilitate the enhancement of its STEM education program.
  --NASA Education serves on the Education Subcommittee of the National 
        Science and Technology Council (NSTC) Subcommittee on Science, 
        which is providing a report based on the Academic 
        Competitiveness Council recommendations.
  --The Office of Education also represents the Agency on the 
        Interagency Aerospace Revitalization Task Force, a group of 
        federal agencies with a vital interest in strategic planning 
        for STEM education to strengthen the science and technology 
        workforce.

                     EPSCOR AND SPACE GRANT FUNDING
 
   Question. Are these reductions because the programs are ineffective 
in their objectives?
    Answer. NASA has not de-emphasized its education program nor 
reduced these two projects being ineffective in their objectives. 
Though the 2009 request for NASA education is a reduction of $31.2 
million from the 2008 enacted budget, it reflects the reality of 
addressing increasing mission operational requirements within limited 
funding.
    Each program area in the Agency was impacted by the need to 
redirect funding. The overall Office of Education's budget reduction 
was further influenced by ``Results Not Demonstrated'' rating in last 
year's OMB Performance Assessment Rating Tool (PART) analysis due to 
the agency not providing sufficient data indicating the program's 
effectiveness. Baseline data and results have now been submitted to OMB 
for review. Education is and will continue to be a fundamental element 
of NASA's activities reflecting a diverse portfolio of Higher 
Education, Minority University Research and Education, Elementary & 
Secondary/Education, and Informal Education Programs.
    For Space Grant, the quantitative change between the fiscal year 
2009 and fiscal year 2008 budgets in DIRECT dollars is a decrease of 
$6.9 million. The Space Grant two tiers of alliances (35 states and 17 
states) are funded at $730,000 and $535,000; respectively, in fiscal 
year 2008. As with all projects, the request includes agency 
administrative full costs that include corporate general and 
administrative costs, which are determined by the Office of the Chief 
Financial Officer (OCFO), as well as project-specific costs. For fiscal 
year 2008 Space Grant, the corporate general and administrative costs 
are approximately $7.6 million. Final allocations are dependent upon 
the passing of the NASA Appropriation and subsequent approval of the 
NASA Operating Plan. Funds will be apportioned to the Space Grant 
consortia in a pro rata manner consistent with 35 Designated consortia 
and 17 Program Grant/Capability Enhancement consortia.
    Question. Are there better places for us to focus our resources for 
education funding, and if so, what education programs do you believe 
work the best at NASA?
    Answer. NASA's Agency goals in education are outlined in both the 
2006 NASA Strategic Plan and the NASA Education Strategic Coordination 
Framework: A Portfolio Approach.
    All of NASA's education efforts are part of an integrated Agency-
wide approach to human capital management. Within the NASA Strategic 
Plan, education is identified as a crosscutting function that supports 
all of the Agency's strategic goals and objectives.
    For the fiscal year 2009 budget, Education used a defined process 
to create a balanced portfolio of investments to address the NASA 
Strategic Plan, recommendations from the National Research Council 
(NRC), and education community priorities.
    Each project within the portfolio is mapped to one of the following 
Outcomes as defined in the NASA Strategic Plan and the Education 
Strategic Portfolio Coordination Framework:
  --Outcome ED-1: Contribute to the development of the STEM workforce 
        in disciplines needed to achieve NASA's strategic goals through 
        a portfolio of programs.
  --Outcome ED-2: Attract and retain students in STEM disciplines 
        through a progression of educational opportunities for 
        students, teachers, and faculty.
  --Outcome ED-3: Build strategic partnerships and linkages between 
        STEM formal and informal education providers that promote STEM 
        literacy and awareness of NASA's mission.
Background:
    In 2006 and beyond, NASA will pursue three major education goals:
  --Strengthen NASA and the Nation's future workforce.--NASA will 
        identify and develop the critical skills and capabilities 
        needed to ensure achievement of NASA's mission. To help meet 
        this demand, NASA will continue contributing to the development 
        of the Nation's science, technology, engineering, and 
        mathematics (STEM) workforce of the future through a diverse 
        portfolio of education initiatives that target America's 
        students at all levels, especially those in traditionally 
        underserved and underrepresented communities.
  --Attract and retain students in STEM disciplines.--NASA will focus 
        on engaging and retaining students in STEM education programs 
        to encourage their pursuit of educational disciplines and 
        careers critical to NASA's future engineering, scientific, and 
        technical missions.
  --Engage Americans in NASA's mission.--NASA will build strategic 
        partnerships and linkages between STEM formal and informal 
        education providers. Through hands-on, interactive educational 
        activities, NASA will engage students, educators, families, the 
        general public, and all Agency stakeholders to increase 
        Americans' science and technology literacy.

                           10 HEALTHY CENTERS

    Question. One of the challenges in running NASA is keeping a 
workforce and the agencies aging facilities running and operating 
efficiently. You have mentioned in the past of maintaining 10 healthy 
and productive centers. Not all centers are the same in their health, 
in fact, some will likely be healthier than others.
    Can you give this committee an idea of which centers, in your 
opinion, are healthier and which ones are not quite as healthy?
    Answer. Achieving the Agency's Space Exploration mission is a 
challenge requiring NASA to draw on all of its expertise and resources. 
Mission success will depend on ten strong, healthy centers. NASA's 
Strategic Management Council (SMC) has developed a set of attributes 
that define strong, healthy Centers as:
  --Centers strategically positioned, configured, and operated to 
        support NASA's Mission.
  --Centers that are prepared to execute programs and project 
        responsibilities successfully and are prepared to adjust or 
        adapt to changes necessary for future Center and Agency success 
        (i.e., Centers doing the right job with the right number of 
        competently prepared people supported by the right mix of 
        state-of-the-art facilities and the right budget.)
    The indicators of strong and healthy centers can be grouped into 
two major categories:
  --Human Capital.--The ability to productively utilize the NASA 
        workforce and to adjust workforce size and skills to meet 
        current and future mission requirements and sustain the 
        operations of the center.
  --Physical Capital.--The quality and utilization of mission and 
        center institutional assets (facilities, buildings, etc.) 
        required to meet not only NASA programmatic goals, but also to 
        sustain national interests while providing for safe and stable 
        center operations.
    Human Capital.--NASA plans to assign important spaceflight 
development activities in exploration and science to all of the 
Centers. Workforce planning has been more effectively integrated into 
the annual budget process and the assignment of work to the NASA 
workforce is supported though a high level of collaboration between the 
programs and the Centers. Where work demand exceeds available workforce 
at a center, it is shifted to centers where workforce is available. In 
the out-years of the budget planning horizon, ARC, GRC, LaRC and DFRC 
have a small amount of workforce available that have not yet been 
planned to identified program demand and funding. However, matching 
work assignments to this workforce is a manageable challenge that we 
expect to resolve as we complete the development of our fiscal year 
2010 budget. An additional measure of workforce health is its 
scalability. NASA can adjust the size of its workforce through 
strategies such as buyout and early retirement incentives, hiring 
controls, and expanded use of non-permanent workforce; i.e., term 
appointments. At the monthly Baseline Performance Review, NASA senior 
leadership reviews key workforce metrics to monitor Center workforce 
health and make adjustments as needed.
    Facilities.--The condition of NASA facilities are approximately 
consistent from Center to Center. Facilities condition varies from 
Center to Center by 0.7, rated on 0 to 5.0 scale.
    Question. If there are centers that are struggling to be healthy, 
would it not be fair to consider converting a less healthy center into 
some other instrument that NASA could utilize like a federally funded 
research and development center (FFRDC)?
    Answer. There are currently no large differences in Center health 
across the Agency, primarily due to the efforts of NASA's leadership 
over the past three years in assigning exploration and science 
development work to strengthen and maintain a healthy workforce 
balance. NASA will continue to face challenges but intends to work 
proactively and strategically to mitigate issues. In 2004-2005, NASA 
investigated the possibility of converting the operations and 
management of some NASA Centers to other organizational models such as 
FFRDCs, Government Corporations or university consortia. At that time, 
several Centers had significant issues that contributed to their 
unhealthy state. Since then, the goal of 10 healthy Centers has been 
developed and maintained, and NASA is not currently pursuing other 
organizational models for its Centers.

                         EXPLORATION ACTIVITIES

    Question. You have already touched on what is currently happening 
in with the Ares and Orion programs. These programs are integral to 
maintaining our Nation's manned spaceflight activities.
    Can you provide us an update on where we are in the schedule?
    Answer. NASA's Constellation program has moved beyond being just a 
mere concept on paper; we are making real progress. We have tested 
hardware; we have tested landing systems; and we have logged thousands 
of hours in wind tunnels. So far, the Ares I project has conducted more 
than 4,000 hours of wind tunnel testing on subscale models of the Ares 
I to simulate how the current vehicle design performs in flight. These 
tests support development of the J-2X engine for the Ares I and the 
Earth Departure Stage of the Ares V. By December 2007, all major 
elements of the Orion and Ares vehicles were placed under contract. 
This year, Constellation will be busy with hardware activities which 
include fabrication of the First Stage Development Motors 1 and 2 for 
Ares I; complete construction of the Upper Stage Common Bulkhead 
Demonstration article and also deliver the first Ares I-X demonstration 
test flight hardware to KSC in October 2008. Orion will be just as 
busy, culminating the year with a test of its launch abort system at 
the U.S. Army's White Sands Missile Range (WSMR) in New Mexico.
    All activities are progressing to support all planned design 
reviews. The Ares I and Orion projects recently completed their Systems 
Definition Review (SDR) and the Preliminary Non-Advocate Reviews that 
confirmed NASA is employing a strong systems engineering approach to 
refine the current program requirements and the requirements were 
properly allocated down to the projects. Orion and Ares I Projects are 
currently proceeding toward their individual Project level Preliminary 
Design Reviews (PDR) by the end of the year. These reviews provide 
opportunities to confirm that the subject activities, products, and 
process control requirements have been adequately flowed to--and 
implemented within--the Projects. The Projects, along with the program, 
are tracking all products required for PDR to insure all data is 
available on time and at the appropriate maturity level.
    Question. Are there any technical issues that NASA is aware of 
today that will cause the current schedule to slip and make the gap 
between the Shuttle retirement and Ares and Orion even longer?
    Answer. NASA is very confident in the capability of our government 
and contractor Constellation team, to accomplish this complex system 
acquisition. We are not dependent on the development of exotic new 
technologies to make this program a reality. Our challenge is the 
integration of complex systems that must work together. Issues have and 
will inevitably arise, but none are expected to delay the Initial 
Operating Capability of Ares and Orion, set for March 2015.
    NASA is continuing the design process for the Orion and is pleased 
with the progress made so far. The current design configuration 
establishes a robust vehicle and meets the weight requirements, 
including meeting the more demanding lunar configurations. However, 
NASA recognizes that the design is still young and much work remains to 
be done to complete it. Some of the key areas NASA is following closely 
with Orion are:
  --Crew support for safety;
  --Ensuring the vehicle adequately supports the crew in the event of 
        contingency landings when the crew may have to spend an 
        extended period of time in the vehicle prior to recovery by 
        ground support teams;
  --Landing scenarios assessment;
  --The assessment of mass threats and opportunities against the Orion 
        PDR configuration; and
  --Understanding the vulnerabilities of the vehicle design and 
        understanding the Loss of Crew and Loss of Mission 
        probabilities.
    Question. What would it take to make these systems come on-line 
sooner, or are we at a point where no matter how much additional 
funding is provided, the successful launch of the Constellation 
vehicles cannot be accelerated?
    Answer. Full funding of NASA's fiscal year 2009 budget request for 
Constellation is needed so that we can continue successful transition 
between the Shuttle and the Orion and Ares I. The fiscal year 2009 
budget request supports Orion IOC in March 2015 at a 65 percent cost 
confidence and full operational capability (FOC) in fiscal year 2016, 
though NASA is working to bring this new vehicle online sooner.
    In preparation for NASA's fiscal year 2010 budget submission to 
Congress next year, NASA is beginning to make several new assessments 
of the program plans, budget available and schedule for the Orion and 
Ares vehicles. Although those calculations are not final, NASA believes 
that acceleration to September 2014 IOC may be possible if additional 
funding for these vehicles beyond what is projected in the fiscal year 
2009 Presidential Budget Request were made available.

                           FINANCIAL SYSTEMS

    Question. For several years now this committee has asked about 
NASA's financial systems. NASA has a recent track record of failing its 
independent audits. We keep being reassured that the financial system 
was being improved.
    Can you point to any improvements in the way NASA keeps track of 
its $17 billion in funds?
    Answer. NASA has two remaining material weaknesses: Financial 
Systems, Analyses, and Oversight (FSAO); and, Enhancements Needed for 
Controls Over Property, Plant and Equipment (PP&E) and Materials. The 
FSAO material weakness addresses multiple entity-wide internal control 
weaknesses, identified by the agency's independent auditor. To resolve 
these issues, NASA has developed a Comprehensive Compliance Strategy 
(CCS) that focuses on ensuring compliance with Generally Accepted 
Accounting Principles (GAAP) and other financial reporting 
requirements. The CCS also covers the standards and requirements 
necessary to cure deficiencies noted in recent audit and related 
reports. The CCS serves as the basis for implementing comprehensive 
proactive corrective actions and provides the guiding principles for 
executing effective financial management functions and activities with 
internal control and compliance solutions inherently embedded in the 
processes.
    In the first quarter of fiscal year 2008, NASA undertook an 
internal review and engaged a nationally-recognized accounting firm to 
perform an in-depth analysis of requirements for NASA to be in 
compliance with GAAP and other applicable financial standards, to 
demonstrate such compliance through auditable evidence, and to operate 
with robust and comprehensive internal controls. Validation of this 
framework and plans to implement the required actions to conform NASA 
policies to this framework were completed in the second quarter of 
fiscal year 2008. An assessment of the remedial actions necessary is 
underway, and upon completion of the assessment, timing and phasing for 
resolution will be determined. The CCS provides the critical path 
milestones for NASA to resolve the FSAO material weakness.
    The Property, Plant and Equipment material weakness is comprised of 
issues primarily related to the agency's reliance on contractors to 
``report property values at periodic intervals without robust agency-
wide detect controls,'' and difficulties ensuring the completeness of 
balances for certain legacy assets.
    In November 2007, NASA implemented a new policy and related 
procedures for identifying the cost of individual assets throughout the 
asset's acquisition lifecycle. This policy change was based on guidance 
received from the Federal Accounting Standards Advisory Board (FASAB). 
These changes support the verification and reconciliation of asset 
values for those assets developed through new contracts (post November 
2007) and certain large pre-existing contracts. For legacy assets, like 
the Space station and Space Shuttles, NASA does not have the necessary 
supporting information available to provide auditable book values for 
the Space Shuttle and the International Space Station (ISS). Together, 
Shuttle and ISS related assets currently represent over $14 billion of 
the total $20.6 billion PP&E net asset value reported in the September 
30, 2007 fiscal year-end financial statements. While certain of the 
existing Shuttle and ISS assets will be transitioned for use on other 
NASA programs, much of this issue may become moot with the passage of 
time, as the Shuttle is to be retired in 2010, and the ISS is being 
depreciated based upon a 15-year specification life through 2016. While 
the ISS depreciation schedule naturally leads to 2016 as an outside 
date for resolution of this issue, NASA is presently developing and 
evaluating a variety of alternatives with a view to achieving a more 
timely, albeit still cost efficient and effective, solution for this 
issue.
    Question. Will we see any improvement in how NASA manages its funds 
so that it is clear to everyone what is happening with taxpayer funds?
    Answer. Even though we still have two material weaknesses 
outstanding, NASA has high confidence in the current data collected and 
reported in our financial systems from our contractors and NASA 
facilities. With this data, we are reporting monthly program status to 
NASA management and Congressional members and staff. We are actively 
using this information to make decisions daily about the execution of 
our programs and projects. Our financial systems permit a comprehensive 
monthly assessment of the execution status of our projects, helping us 
to identify which projects might require additional funding, and which 
may be potential sources for funds re-balancing. You will see operating 
plan requests that are based upon this level of insight.
    Our financial systems now provide standard data reports that can be 
used by senior managers to assess how well projects are using their 
appropriated funds and to allow managers to make corrections as needed 
to ensure proper funds management. Starting last summer, we initiated 
an Agency-wide effort to ensure efficient use of appropriated funds, 
with a goal of reducing our end of year unobligated balances by over 40 
percent. Through better reporting, better funds distribution processes, 
and better management tools and standards, we expect to achieve this 
goal by the end of fiscal year 2008.
    Question. In your proposed budget for the Shuttle, there is funding 
identified through fiscal year 2011. For a vehicle that has been around 
as long as the Shuttle, I find it hard to believe that the program can 
be completely closed out in that short of time. What is the plan to 
fund and perform this close out activity?
    Answer. Current plans call for Shuttle transition and retirement 
real and personal property disposition activities (the long-term item 
in transition and retirement) to be effectively complete (with no 
further significant budget impacts to ongoing programs) by about the 
middle of the next decade. Shuttle transition and closeout began two 
years ago and the rate of closeout continues to increase as the Shuttle 
flies out the remaining manifest. The goal, projections, and progress 
indicate that Shuttle closeout will be well on its way to completion at 
the end of 2010. NASA will develop estimates for transition and 
retirement funding needed from 2011 and later during the formulation of 
the fiscal year 2010 budget. It is important to note that NASA 
continues to disposition Apollo-era property at a low level even today, 
thirty-two years after the last flight of an Apollo vehicle.
    The in-year resources (i.e., those from fiscal year 2006-10, the 
end of the Space Shuttle Program) for Transition and Retirement (T&R) 
activities are already incorporated in the Space Shuttle Program budget 
line. The out-year costs (i.e., those from fiscal year 2011-15) for T&R 
activities are being generated now as part of the formulation of the 
fiscal year 2010 President's Budget request. The budget projection will 
benefit from trade studies and ``what-if'' exercises conducted since 
the development of the fiscal year 2009 request, and will reflect an 
increasingly mature understanding of Constellation Program 
requirements. Every time NASA has projected out-year T&R costs, the 
numbers have decreased. Thus, the Agency didn't want to prematurely 
commit to a firm set of out-year numbers, since data and trends 
indicate that transition and retirement costs will be lower than the 
estimate from 2007. In not ``locking in'' higher projections, NASA 
hopes to incentivize people to find the best methods and approaches for 
the Agency.
    Question. What are your observations on the Chinese space program 
and what does it mean for our Nation?
    Answer.
Assessment of Chinese Capabilities to Mount a Human Lunar Mission
    Chinese space officials have openly discussed plans to conduct 
spacewalking demonstrations next year, orbital rendezvous and docking 
operations by 2010, and a robotic lunar landing mission by 2012. Based 
upon a careful review of open source information concerning the 
capabilities of the Shenzhou crew vehicle and the planned Long March 5 
rocket, it is my considered judgment that, although China's public 
plans do not include a human lunar landing, China will have the 
technical wherewithal to conduct a manned mission to the surface of the 
moon before the United States plans to return.
    While initial Chinese mission(s) to the moon would not have the 
long-term sustainability of our own plans for lunar return, I believe 
China could be on the moon before the United States can return.
    China is prosecuting a fully indigenous program of human 
spaceflight development. They have adapted the design of the Russian 
Soyuz vehicle to create their own Shenzhou, which is more spacious, 
more capable, and better suited for long duration space missions than 
its Russian antecedent. China plans to conduct its first spacewalks and 
orbital rendezvous operations in 2008 and 2010, and to build a small 
space station in the next few years. All of this has been openly 
announced. Their accomplishments so far give me no cause to doubt their 
ability to carry out these plans.
    With the first manned Shenzhou flight in October 2003 China 
surpassed by itself the accomplishments of all six U.S. Mercury 
missions in the early 1960s. The second Shenzhou flight in 2005 
demonstrated most of the accomplishments of the first three U.S. Gemini 
missions in 1965. They will soon demonstrate the rendezvous and docking 
capabilities pioneered by the United States in the Gemini program in 
1966, by docking a Shenzhou spacecraft with another Shenzhou, or with 
an orbital module left by a prior mission.
    These examples illustrate a fundamental difference between the 
development of the Chinese human spaceflight program, and that of the 
United States and Russia. Because China can follow established 
technical paths, they do not have to verify the basic feasibility of 
their approach. They need only to demonstrate that their systems work 
as designed to accomplish tasks which are by now well understood. Thus, 
each step in space can take them to a new capability plateau, eclipsing 
the equivalent of several pioneering but tentative steps in an earlier 
era. The United States required twenty-one human spaceflights to reach 
the moon in the 1960s. China should not need so many.
    The second major initiative for which the Chinese have demonstrated 
significant progress is the development of the Long March 5 launch 
vehicle. They have conducted several rocket engine tests over the past 
two years, and plan to conduct demonstration flights in 2008-11. The 
Chinese have advertised its capability as 25 metric tons (mT) to low 
Earth orbit (LEO), rivaling or surpassing the largest expendable launch 
vehicles available today, which have a capacity of approximately 20 mT, 
or slightly greater. I believe that China's concerted, methodical 
approach to the Long March 5 development, along with recent 
construction of a new launch facility on Hainan Island, puts them on 
track to bring the Long March 5 online by 2013-14, their stated 
intention. NASA's Ares I rocket, which will have similar capabilities, 
will not be fully functional until March 2015, according to current 
plans.
    Third, China has developed and demonstrated a dual launch 
processing capability. This capability, together with the 25 mT-to-LEO 
capacity of the Long March 5, allows China to reach the ``tipping 
point'' critical to executing a manned mission to the Earth's moon. As 
one possible approach, this can be done by means of two dual-launch 
sequences.
    The first Long March 5 would place, in Earth orbit, a lunar lander 
similar in size and mass to the Apollo Lunar Module, about 14 mT, 
together with a lunar orbit injection (LOI) stage weighing 6 mT. With a 
second Long March 5 launch, the lander and LOI stage would be joined in 
Earth orbit by a 25 mT Trans-Lunar Injection (TLI) stage. The two 
payloads would rendezvous and dock automatically, as the Russian Soyuz 
and Progress vehicles do at the International Space Station today. 
After docking, the TLI stage would send the combined payload to the 
moon. Injection into lunar orbit would be accomplished by the LOI 
stage, leaving the lander poised to wait for a few weeks--or even 
months if necessary--for the second launch sequence.
    The second pair of Long March 5 launches would place in Earth orbit 
a crewed Shenzhou vehicle and LOI stage with one launch, and a TLI 
stage with the other. As in the earlier sequence, the Shenzhou would 
rendezvous and dock with the TLI stage, which would send the combined 
stack to the moon. The LOI stage would decelerate the Shenzhou into 
lunar orbit, where it would then dock with the waiting lander. The 
Shenzhou would differ from today's Earth-orbital version in two 
respects. It would require larger propellant tanks to allow it to 
depart lunar orbit for the return to Earth, and it might require a 
thicker heat shield to withstand atmospheric entry upon return from the 
moon. Neither of these modifications presents a significant challenge. 
The lunar version of Shenzhou would weigh about 11 mT, considerably 
less than the 14 mT lunar lander, so the delivery of a lunar-capable 
Shenzhou to lunar orbit presents no difficulty.
    After rendezvous, the Shenzhou crew would transfer to the lander, 
land on the moon's surface, remain for several days, depart, rendezvous 
again with the Shenzhou, and return to Earth. (Parameters and 
assumptions for this scenario are summarized in the attached Technical 
Notes.)
    What is fundamentally different about the dual-launch capability 
that the Chinese have demonstrated, and could well develop for the Long 
March 5, is that it enables human lunar missions without requiring a 
120 mT class vehicle like the Apollo-era Saturn V, or our planned 
Shuttle-derived Ares V. This technique is not particularly cost-
effective and is not easily scaled to a sustainable operation, but it 
does offer a path to ``boots on the moon'' without the development of a 
heavy-lift launch vehicle.
    Apart from the lunar lander itself, this approach requires for its 
implementation only modest developments beyond the existing Shenzhou 
and the Long March 5 vehicles. The new elements for a lunar mission are 
the TLI and LOI stages, which would be essentially the same aside from 
the size of the propellant tanks employed, and which would utilize the 
upper-stage engines from the Long March 5, with modest improvements. 
This is a minor developmental excursion from Long March 5 technology.
    China has not announced any intention to develop a human lunar 
lander. However, I note that China recently launched its first robotic 
lunar orbiter mission, and has announced plans for a robotic lander by 
2012 and a robotic sample return mission in the 2017-2020 timeframe. 
The developments in communications, tracking, guidance, navigation, and 
control required to execute robotic lunar orbital and lander missions 
are identical to those for a manned system, irrespective of whether or 
not the lander itself is scaleable to human missions. Inasmuch as the 
design parameters of the Apollo lunar lander are widely known and well 
within today's state of the art, the development of a similar vehicle 
by the Chinese should not present a significant problem.
    Pending development of a Chinese manned lunar lander, a fly-by or 
orbital mission around the moon could easily be executed with the 
Shenzhou spacecraft and a single pair of Long March 5 launches, as 
outlined above. Indeed, as a matter of prudent engineering development, 
I would fully expect China to execute such a mission prior to a lunar 
landing. This would be completely analogous to the inspirational Apollo 
8 mission during the Christmas season of 1968.
    Question. What do you think we need to do to maintain our advantage 
in space exploration and innovation?
    Answer. NASA should continue to take all steps necessary to retire 
the Shuttle, which is planned for the end of fiscal year 2010. 
Retirement of the Shuttle is a critical step in enabling a smooth 
transition to NASA's exploration program. Full funding of NASA's fiscal 
year 2009 budget request for Constellation is needed so that we can 
continue successful transition between the Shuttle and the Orion and 
Ares I. The fiscal year 2009 budget request supports Orion IOC in March 
2015 at a 65 percent cost confidence and full operational capability 
(FOC) in fiscal year 2016, though NASA is working to bring this new 
vehicle online sooner. Budget stability in fiscal year 2009 is crucial 
to maintaining IOC. There is minimum flexibility through fiscal year 
2010, so Congressional support for budget stability is critical.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

         NASA OPERATIONS AT THE MICHOUD ASSEMBLY FACILITY (MAF)

    Question. Given the vast amount of room in the MAF and the green 
space outside the facility, are there any expected transfer business 
opportunities from other NASA facilities to Michoud in the next year?
    Answer. Since 2006, NASA has been actively supporting 
diversification of work being performed at the Michoud Assembly 
Facility (MAF) for NASA and other organizations, and the Agency will 
continue to do so. Today, MAF is transitioning from being a single-
project (External Tank), government-owned, contractor-operated 
facility, to one being used for manufacturing by several human space 
flight projects for the Constellation Program. As part of this 
transition, Ares I Upper Stage and Instrument Unit work is planned for 
MAF, as well as Orion Crew Exploration Vehicle manufacturing and Launch 
Abort System work. After completion of the Space Shuttle manifest in 
2010, MAF's major use will be the production of the Ares V heavy lift 
rocket for Constellation.
    For the next year, NASA work at MAF is focusing on: continued 
External Tank production; initial start-up of Constellation Ares I 
Upper Stage and Orion manufacturing equipment installations; 
transitioning to a new base operations contractor; and investigation of 
``enhanced use lease'' opportunities by non-NASA entities.
    During calendar year 2008, NASA is conducting the competition to 
select a new ``base operations contractor'' to operate and maintain MAF 
for NASA and non-NASA users. The contractor should be selected during 
fiscal year 2009. One reason NASA has made the change to the way the 
facility is operated now, prior to the last Space Shuttle External Tank 
being completed, is to facilitate the goal of enabling diversification 
of the work being performed at MAF before the last External Tank is 
completed. This should partially mitigate the workforce disruption at 
the end of External Tank production.
    NASA continues to refine Constellation plans this year, including 
plans for Ares V launcher design and development. It is possible that 
these refinements may accelerate Ares V work at MAF into fiscal year 
2012 or fiscal year 2011. If so, NASA will inform the Committee.
    Question. How about any in the next 5 years?
    Answer. NASA is currently investigating the possibility of adding 
Ares V manufacturing technology demonstrations to MAF over the next 
three years, prior to the start of full production of Ares V projects 
at MAF. These assessments will be conducted incrementally over the next 
two years, and may or may not result in manufacturing technology work 
assignments, based on budget availability and conflicts with work 
already at MAF. If work is added, NASA will inform the Committee.
    Layouts for NASA floor space at MAF in the fiscal year 2013-2014 
show that the great majority of MAF floor space will be used for 
manufacturing equipment installation for Ares V Core Stage and Ares V 
Earth Departure Stage (EDS) production. NASA floor plans show MAF floor 
space utilized at a very high percentage once Ares V development 
begins. Because MAF utilization is projected as being high for Ares V, 
and given the cost to programs of changing equipment locations once 
established, NASA is not currently considering major but temporary 
(two years) allocations of production work from other projects to MAF 
prior to Ares V development.
    NASA is currently refining plans to close out Space Shuttle 
External Tank production after the last Space Shuttle mission in fiscal 
year 2010. Work to dispose of materials and tooling no longer required 
for Space Shuttle production and unneeded for Constellation production 
will be conducted by a subset of the existing MAF contractor workforce. 
These plans are expected to be completed by October 2008. When these 
plans are completed and the amount and duration of work to dispose of 
External Tank manufacturing equipment is understood, NASA will inform 
the Committee.
    Question. Will you commit to do a thorough review of possible 
transfer opportunities which may help ``bridge'' employment at the 
Michoud Facility? (Yes/no)
    Answer. As stated in response to the previous question, NASA is 
currently conducting a competition to select a new ``base operations 
contractor'' to operate and maintain MAF for NASA and non-NASA users. 
The contractor should be selected during fiscal year 2009. One reason 
NASA has made the change to the way the facility is operated now, prior 
to the last Space Shuttle External Tank being completed, is to 
facilitate the goal of enabling diversification of the work being 
performed at MAF before the last External Tank is completed. This 
should partially mitigate the workforce disruption at the end of 
External Tank production.
    NASA is also exploring the potential of ``bridge'' employment at 
our impacted facilities, which may take the form of cross-training key 
Shuttle personnel to work on Constellation projects and/or early builds 
of some Constellation hardware. Also, in preparation for next year's 
budget submission to Congress, NASA is undertaking several programmatic 
trade studies for how best to plan and organize Constellation work, 
including the post-2010 flight test program, with an eye toward 
enhancing our test program and mitigating workforce impacts as we 
retire the Space Shuttle and transition to new Constellation Systems.
    It should also be noted that the first NASA Transition Workforce 
Report, submitted to the Committee on March 31, 2008, likely overstated 
the reduction in local employment at MAF because of the assumptions and 
caveats listed in that report. NASA continues to refine Ares V 
development planning, including short term manufacturing demonstration 
tasks, and these refinements may modify internal government estimates 
of contracted work to be conducted at MAF from fiscal year 2010 to 
fiscal year 2015. If there are internal estimate changes, these would 
be reflected in the next update to the NASA Transition Workforce Report 
in September 2008.

                   FUNDING FOR CONSTELLATION PROGRAM

    Question. How much in additional funding would have to be added to 
the fiscal year 2009 NASA budget to close or essentially close the gap 
between Space Shuttle retirement and the start of the Constellation 
Program?
    Answer. Full funding of NASA's fiscal year 2009 budget request for 
Constellation is needed so that we can continue successful transition 
between the Shuttle and the Orion and Ares I. The fiscal year 2009 
budget request maintains Orion initial operational capability (IOC) in 
March 2015 at a 65 percent cost confidence level and full operational 
capability (FOC) in fiscal year 2016, though NASA is working to bring 
this new vehicle online sooner. In order to accelerate the Ares I and 
Orion IOC, and provide for a 65 percent cost confidence level for a 
September 2014 IOC instead of March 2015, an additional $350 million in 
fiscal year 2009 and an additional $400 million in fiscal year 2010 
would be required.
    The Agency is considering a number of options for minimizing the 
period between Shuttle retirement and the availability of a new U.S. 
crew transport capability, including maintaining an aggressive 
development schedule for Orion/Ares I. However, keeping the Space 
Shuttle flying past 2010 is simply not a credible way to address this 
issue. The Agency cannot continue flying the Space Shuttle while 
simultaneously and aggressively developing the next-generation 
exploration systems under the Constellation program. Maintaining even a 
minimal capability to launch two Shuttle flights per year after fiscal 
year 2010 would require nearly the same infrastructure and vendor 
capabilities we have today, at a cost of approximately $2.7-$4 billion 
per year, which would likely come at the expense of Constellation 
development. In addition, the Constellation architecture is designed to 
take advantage of Space Shuttle infrastructure, production 
capabilities, and workforce once they are no longer needed for flying 
the Shuttle. If the Shuttle were kept flying past 2010, these 
capabilities could not be released for Constellation's modification and 
use. As a result, keeping Shuttle flying past 2010 would only compound 
the problem of getting Constellation into service and would not reduce 
the period between Shuttle retirement and the availability of a new 
U.S. crew transport capability.

            SMALL/DISADVANTAGED BUSINESS UTILIZATION EFFORTS

    Question. The Marshall Space Flight Center in Alabama currently has 
a U.S. Small Business Administration (SBA) Procurement Center 
Representative (PCR) which assists with small business procurement and 
technical assistance in that area. It is my understanding that this PCR 
is responsible for Michoud in New Orleans. Please provide information 
on the specific duties of this PCR.
    Answer. Ms. Barbara (Bobbie) Jenkins is the resident SBA PCR 
assigned to the Marshall Space Flight Center (MSFC), and is the liaison 
PCR and provides coverage for: the Stennis Space Center, MS, and NASA 
Shared Services Center (NSSC), which is located on the same campus as 
Stennis Space Flight Center, MS; Space and Missile Defense Agency in 
Huntsville, AL; Anniston Army Depot in Anniston, AL, Fort Rucker, AL, 
the Naval Facilities Engineering Command PWD Mid-South in Millington, 
TN, and the Corp of Engineers in Memphis, TN.
    Following is a listing of principal duties of this SBA PCR.
    The SBA PCR is responsible for representing the SBA at the 
foregoing assigned installations on all matters pertaining to 
procurement policy or operations that affect SBA's programs or small 
business concerns, interest in, or doing business with, these 
installations. The PCR reviews procurement plans and programs of the 
installation with the head of the installation or director of 
procurement. She evaluates their impact on small business and 
recommends changes to enhance small business participation. She 
develops individual plans of operation for each installation which will 
ensure adequate consideration of small business and a fair share of 
awards to small business.
    The SBA PCR takes appropriate action to resolve policy and/or 
procedural deviations which have significant adverse impact on contract 
awards to small business anticipated or made by the installation. The 
PCR reviews types and classes of items to determine which ones can be 
set-aside for small businesses.
    The SBA PCR reviews all significant procurements not set-aside by 
class action or unilateral action on the part of the installation and 
takes appropriate action to facilitate individual set-aside action on 
procurements on which research indicates the expectation of sufficient 
small business competition.
    In some cases, the PCR may also review procurements that have been 
set-aside for small business to see if they might be suitable for the 
8(a) Program or for HUBZone, service-disabled veteran-owned, or women-
owned small business; and, if so, the PCR takes appropriate action on a 
case-by-case basis to facilitate a more targeted set-aside.
    As required by Section 8(d) of the Small Business Act (Public Law 
95-507), the PCR reviews pre-award proposed subcontracting plans 
submitted by apparent successful bidders and offerors. The PCR advises 
the contracting officer if plans provide maximum practicable 
opportunities for small business in accordance with the statute and 
regulations. If not, the PCR negotiates with contracting officer to 
resolve differences.
    The SBA PCR develops technical data on specifications and 
specialized equipment necessary to produce items on which there is 
limited or no small business competition so as to provide small firms 
with the opportunity to compete. The PCR reviews local regulations and 
instructions which have an impact on small business concerns to ensure 
conformity with the Federal Acquisition Regulations (FAR) and brings 
deviations that are harmful to small business to the attention of 
proper procurement officials for correction.
    The SBA PCR appeals unwarranted rejections or withdrawals of set-
asides to the commanding officer or to the head of the installation, 
and suspends procurement until the set-aside issue is resolved. If not 
resolved at the installation level, the PCR prepares and documents 
files for set-aside appeals to the Agency headquarters level by the SBA 
Administrator.
    The SBA PCR personally develops small business sources for 
procurements on which such competition is needed or initiates action 
for other SBA offices to develop such sources. The PCR takes action to 
assure that competent small business concerns are included on the 
source list for negotiated procurement.
    The SBA PCR studies the history of sole source procurement and 
recommends specific components for direct competitive purchase by the 
Government, either through component breakout or breakout under the 
high dollar spare parts procedures. The PCR studies individual sole 
source procurement and recommends that complete specifications and 
drawings be obtained from the sole source contractor when the 
Government has purchased the rights to them, that competitive 
procurements be made, and that sources furnished by SBA be given the 
opportunity to compete.
    The SBA PCR conducts interviews with representatives of small 
business concerns and advises them how and where to sell their products 
to the Government. She directs them to the cognizant purchasing 
offices, and, when appropriate, arranges for these firms to contact the 
proper SBA representative, Certificate of Competency Specialist, 
Commercial Market Representative, Size Specialist, or Small and 
Disadvantaged Business Specialist.
    The SBA PCR participates in the establishment of small business 
award goals at installations for which the she is responsible. The PCR 
evaluates the rationale on which goals are based and negotiates with 
procurement officials for the raising of targets when data warrants 
such action.
    The SBA PCR conducts periodic seminars for interested small 
businesses, either alone or with other Federal agencies, to provide an 
update for the small business community in the area regarding changes 
in procurement regulations and/or policies which affect them.
    The SBA PCR is responsible for the screening, identification, and 
referral of all procurements to be used in the 8(a) programs nationally 
at the installations covered.
    Question. Does this PCR also cover the Stennis Space Flight Center 
in Mississippi?
    Answer. Yes, as noted above, Ms. Jenkins also covers the Stennis 
Space Flight Center.
    Question. Please provide information on the status and whether 
there is any demonstrated success of current Michoud small business 
utilization efforts.
    Answer. The attached chart contains the actuals of the two major 
contracts currently being performed at Michoud Assembly Facility by the 
Lockheed Martin Corporation. As reflected in the chart, on the External 
Tank contract, Small Businesses are receiving 21 percent of the total 
contract value, which equates to $471.2 million, and on the Facility 
Operations contract, Small Businesses are receiving 21.3 percent of the 
total contract value, which equates to $42.3 million. Lockheed is 
exceeding the negotiated small business goals for both of these 
contracts.

     LOCKHEED MARTIN CORPORATION MICHOUD ASSEMBLY FACILITY EXTERNAL TANK AND CONSOLIDATED FACILITY CONTRACTS
----------------------------------------------------------------------------------------------------------------
                                                               Awarded to SB of total
                                                                        award             Facility     Percent
                                                             --------------------------  NNM04AA02F    Achieved
                                                                 Amount      Percent
----------------------------------------------------------------------------------------------------------------
Current Contract Amount.....................................     $2,247.7  ...........        $98.4  ...........
Small Business..............................................       $471.2         21.0        $42.3         21.3
Small Disadvantage Business.................................       $109.3          4.9        $22.5         11.3
Woman Owned Small Business..................................        $71.5          3.2         $2.6          1.3
HUBZone.....................................................  ...........  ...........          $.4           .2
Veteran Owned Small Business................................  ...........  ...........        $14.8          7.5
Small Disadvantage Veteran Owned Small Business.............  ...........  ...........          $.2           .1
----------------------------------------------------------------------------------------------------------------
Note: The external tank contract is NAS8-00016, and the facility contract is NNM04AA02F. Lockheed Martin
  provides this support to MSFC at the Michoud Assembly Facility in New Orleans. These are MSFC contacts.

                      ENHANCED USE LEASE AUTHORITY

    Question. Describe the estimated workforce impact of the expanded 
Enhanced Use Lease authority on the ability to provide additional 
employment opportunities at Michoud over the next five years.
    Answer. Enhanced Use Leasing (EUL) will support NASA's efforts to 
develop underutilized real property at the Michoud Assembly facility 
(MAF), offsetting job losses from the sunset of the External Tank 
project. EUL will provide a benefit that will assist in marketing and 
developing new tenants. It will also allow NASA more flexibility in 
using the income to help reduce the cost of maintaining this national 
asset.
    MAF is playing a major role in the Constellation program including 
the manufacture of the Orion Command Module structure, the Service 
Module structure, and the Ares I Upper Stage at MAF. Starting in 2012, 
manufacturing of Ares V Boost Stage, and Ares Earth Departure Stage are 
planned for MAF as well. There is significant potential and incentive 
for private entities to locate on the site to take advantage of common 
pursuits. Enhanced Use Leasing can support and provide a vehicle for 
these pursuits. Commercial use of the space, by tier 2, 3, or 4 Space 
program suppliers is expected. The proximity of suppliers can increase 
their understanding of NASA program requirements and ease product 
delivery, expanding the skill base and workforce pool needed to execute 
NASA's next generation of vehicles.
    While it is too early to project workforce estimates, NASA's keen 
interest in preserving the talented workforce at MAF will be key to EUL 
developments. Enhanced Use Lease will allow MAF to either reduce or 
avoid increases to its facilities overhead burden and to develop 
revenue streams for sustaining certain facilities and infrastructure.
    NASA MAF has met with other Federal and NASA EUL implementers, such 
as the Department of Energy Oak Ridge National Laboratory, to discuss 
their business model for developing their science and technology park. 
MAF has specific, unique capabilities which can be utilized or expanded 
by EUL partners. These capabilities include extensive infrastructure 
for design, manufacturing, and testing of extremely large aerospace 
structures; their transportation and handling including a deep-water 
port; and the specialized environmental permits, wastewater treatment 
capability, and compliance management for large vehicle manufacturing.
    Question. Does NASA recommend any additional steps that can be 
taken by the State of Louisiana to take full advantage of this expanded 
authority at Michoud?
    Answer. As the Senator is aware, MAF hosts the National Center for 
Advanced Manufacturing (NCAM), a Federal, State, and University 
sponsored partnership. The NCAM is currently involved in discussions 
with the State to assess workforce retraining and benefit strategies to 
make sure the current MAF workforce can have full access to proper 
training to attract potential new tenants.

                  ADDITIONAL BRIDGE EMPLOYMENT EFFORTS

    Question. I would be interested if NASA could provide some specific 
recommendations for priority areas that Congress and the State of 
Louisiana can work with NASA to provide significant ``bridge'' 
employment to help retain workers at the Michoud facility.
    In particular, are there any other Federal government programs, 
such as those at the Economic Development Administration, the Small 
Business Administration's Historically Underutilized Business Zone 
(HUBzone) Program, or Department of Labor assistance programs which 
could help the economic impact of workforce reductions at the Michoud 
Facility?
    Please provide any additional areas that the Congress and/or State 
of Louisiana could help provide bridge employment at the Michoud 
facility.
    Answer. NASA does not have a recommendation at this time. Lockheed-
Martin, the prime contractor at the Michoud Assembly Facility (MAF) for 
the Space Shuttle Program External Tank, is investigating employee 
placement and potential new ``within the company'' work assignments to 
MAF as a facility user following the end of External Tank production. 
NASA will continue to investigate alternate business opportunities for 
the MAF workforce skill types and identify these to the Committee and 
Lockheed-Martin when known. NASA will investigate, during fiscal year 
2009, assistance from other Federal Government programs to affect 
economic impact from MAF work changes.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. The Western United States depends upon information 
collected by the thermal infrared instrument (TIR) on the NASA Landsat 
satellite to measure and monitor water supply and use. However, I 
understand that you have stated that building the TIR will delay the 
launch schedule for Landsat 8. Other than funding, are there any other 
factors that would preclude you from building the TIR and including it 
on Landsat 8 without delaying the scheduled launch?
    Answer. There are no substantial technical challenges associated 
with adding a thermal infrared (TIR) instrument to the Landsat Data 
Continuity Mission (LDCM). The challenges are in cost and schedule. TIR 
is not in the LDCM cost baseline, as the LDCM conceptual design did not 
include a requirement for thermal imaging. The schedule challenge 
arises from the risk of lengthening the potential data gap between 
Landsat 7 and LDCM, although NASA's current schedule projections for 
LDCM regardless of whether it flies a TIR indicate that the mission 
will not be ready for a July 2011 launch as originally planned.
    Question. NASA facilities and contractors in California are helping 
to develop and build the Orion Crew Exploration Vehicle for the 
Constellation Program; and many key components for the Space Shuttle 
program. The current shuttle fleet is scheduled to be retired in 2010, 
leaving the United States without domestic capacity for manned space 
flight. What level of funding is needed to restore NASA's manned space 
flight capacity before 2015?
    Answer. Full funding of NASA's fiscal year 2009 budget request for 
Constellation is needed so that we can continue successful transition 
between the Shuttle and the Orion and Ares I. The fiscal year 2009 
budget request maintains Orion initial operational capability (IOC) in 
March 2015 at a 65 percent cost confidence level and full operational 
capability (FOC) in fiscal year 2016, though NASA is working to bring 
this new vehicle online sooner. In order to accelerate the Ares I and 
Orion IOC, and provide for a 65 percent cost confidence level for a 
September 2014 IOC instead of March 2015, an additional $350 million in 
fiscal year 2009 and an additional $400 million in fiscal year 2010 
would be required.
    The Agency is considering a number of options for minimizing that 
gap, including maintaining an aggressive development schedule for 
Orion/Ares I. However, keeping the Space Shuttle flying past 2010 is 
simply not a credible way to address this issue. The Agency cannot 
continue flying the Space Shuttle while simultaneously and aggressively 
developing the next-generation exploration systems under the 
Constellation program. Maintaining even a minimal capability to launch 
two Shuttle flights per year after fiscal year 2010 would require 
nearly the same infrastructure and vendor capabilities we have today, 
at a cost of approximately $2.7-$4 billion per year, which would likely 
come at the expense of Constellation development. In addition, the 
Constellation architecture is designed to take advantage of Space 
Shuttle infrastructure, production capabilities, and workforce once 
they are no longer needed for flying the Shuttle. If the Shuttle were 
kept flying past 2010, these capabilities could not be released for 
Constellation's modification and use. As a result, keeping Shuttle 
flying past 2010 would only compound the problem of getting 
Constellation into service and would not reduce the period between 
Shuttle retirement and the availability of a new U.S. crew transport 
capability.
    Question. The United States faces an imminent gap in both cargo and 
crew carriage to the International Space Station after retirement of 
the Shuttle in 2010. If NASA were to pursue domestic carriage through 
the exercise of the COTS Capability D (manned) option, how quickly 
could this occur, how much would Capability D cost over what period of 
time, and when is the soonest date that a domestic, commercial provider 
could become available?
    Answer. NASA estimates that industry would require a development 
period of between 3-6 years until a fully operational Capability D for 
crew transportation and rescue services would be available. Even if 
Capability D becomes operationally available during this timeframe, 
NASA will still need to purchase Russian Soyuz crew transportation and 
rescue services to fill any gap between Shuttle retirement and the 
projected Capability D operationally available date. NASA prefers to 
purchase U.S. commercial crew transportation and rescue services once 
they have been demonstrated rather than purchase Russian Soyuz 
services.
    Credible industry proposals for Capability D would need to take 
into consideration an extended development period, major financial 
investments, and high infrastructure costs. In order for NASA to 
initiate the first phase of a Capability D option, funding on the order 
of a few hundred million dollars per partner would have to be made 
available through the development period. NASA estimates that an 
industry partner would have to spend well over $1 billion in the 
development of Capability D, either from company reserves or from 
outside investments in addition to the NASA funding. NASA believes that 
a co-investment approach would appropriately balance the government's 
contribution with the desire to stimulate the market and ensure 
commitment from industry for a follow on procurement of demonstrated 
crew transportation services. This approach would be consistent with 
the current funded Space Act Agreements with SpaceX and Orbital 
Sciences Corporation for development and demonstration of cargo 
delivery.
    Question. Are you confident that the Joint Dark Energy Mission that 
results from NASA's competition will be within the range of all of the 
explicit scientific objectives and expectations laid out by the 
National Research Council in its report on ``Beyond Einstein'' 
missions?
    Answer. Yes. From the National Academies' National Research 
Council's major findings, a Joint Dark Energy Mission (JDEM) mission 
will set the standard in the precision of its determination of the 
distribution of dark energy in the distant universe. By clarifying the 
properties of 70 percent of the mass-energy in the universe, JDEM's 
potential for fundamental advancement of both astronomy and physics is 
substantial. A JDEM mission will also bring important benefits to 
general astronomy. In particular, JDEM will provide highly detailed 
information for understanding how galaxies form and acquire their mass.
    NASA will use the National Academies' National Research Council's 
report and other related reports in preparing the Announcement of 
Opportunity (AO) for JDEM science investigations. Potential to meet 
JDEM science objectives will be a principal selection criterion. NASA 
continues to work with ESA and others to prepare for future missions 
such as LISA and Con-X to meet additional objectives of NASA's Physics 
of the Cosmos program which include the Beyond Einstein science.
    Question. The proposed budget transfers the space communications 
networks from Science to Space Operations. What is the purpose of this 
transfer and will funding for these activities be fully maintained 
after the transfer?
    Answer. The consolidation of the Agency's Space Communications and 
Navigation (SCaN) activities under a single management organization 
will move NASA away from individual solutions, providing instead an 
integrated, efficient and effective approach to meeting NASA's evolving 
SCaN needs. As part of this consolidation, NASA transferred all 
budgetary matters related to SCaN to this new organization, presently 
known as the SCaN Program Office (within the Space Operations Mission 
Directorate). The SCaN Program Office will draw on the commonality in 
the hardware, software and operations in the existing networks to 
integrate all of these networks under a single architecture, capable of 
meeting all of NASA's growing SCaN needs. The efficiency that NASA can 
achieve from this integration will provide the Agency with more 
effective SCaN services into the future and will enable the leveraging 
of cost savings into upgrading and modernizing the aging SCaN 
infrastructure. NASA anticipates that all existing activities will not 
only be maintained, they will also be enhanced to more effectively 
enable NASA's spaceflight and exploration missions.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The subcommittee stands in recess until 
April 10 when we will take testimony from the Attorney General. 
Thank you very much.
    [Whereupon, at 11:05 a.m., Thursday, April 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
